<html>
<title> - THE AFGHANISTAN PAPERS: COSTS AND BENEFITS OF AMERICA'S LONGEST WAR</title>
<body><pre>[Senate Hearing 116-203]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-203
 
  THE AFGHANISTAN PAPERS: COSTS AND BENEFITS OF AMERICA'S LONGEST WAR

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON FEDERAL SPENDING
                   OVERSIGHT AND EMERGENCY MANAGEMENT

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 11, 2020

                               __________

                  Available via http://www.govinfo.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                    




                            ______                      


             U.S. GOVERNMENT PUBLISHING OFFICE 
 40-386PDF            WASHINGTON : 2020 
                        
                    

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
               David M. Weinberg, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

  SUBCOMMITTEE ON FEDERAL SPENDING OVERSIGHT AND EMERGENCY MANAGEMENT

                     RAND PAUL, Kentucky, Chairman
RICK SCOTT, Florida                  MAGGIE HASSAN, New Hampshire
MICHAEL B. ENZI, Wyoming             KAMALA D. HARRIS, California
JOSH HAWLEY, Missouri                KRYSTEN SINEMA, Arizona
                      Greg McNeill, Staff Director
                  Harlan Geer, Minority Staff Director
                      Kate Kielceski, Chief Clerk
                      
                      
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Paul.................................................     1
    Senator Hassan...............................................     3
    Senator Hawley...............................................    12
    Senator Lee..................................................    32
Prepared statement:
    Senator Paul.................................................    41
    Senator Hassan...............................................    44

                               WITNESSES
                       Tuesday, February 11, 2020

John F. Sopko, Special Inspector General for Afghanistan 
  Reconstruction.................................................     5
Hon. Douglas Lute, Former United States Permanent Representative 
  to NATO and Senior Fellow, Project on Europe and the 
  Transatlantic Relationship, Belief Center for Science and 
  International Affairs, Harvard Kennedy School..................    16
Hon. Richard A. Boucher, Former United States Ambassador to 
  Cyprus and Senior Fellow, The Watson Institute for 
  International and Public Affairs, Brown University.............    23
Lieutenant Colonel Daniel Davis, USA, Ret., Senior Fellow and 
  Military Expert, Defense Priorities............................    26

                     Alphabetical List of Witnesses

Boucher, Hon. Richard A.:
    Testimony....................................................    23
    Prepared statement...........................................    71
Davis, Lt. Col. Daniel:
    Testimony....................................................    26
    Prepared statement...........................................    77
Lute, Hon. Douglas:
    Testimony....................................................    16
    Prepared statement...........................................    69
Sopko, John F.:
    Testimony....................................................     5
    Prepared statement...........................................    46


  THE AFGHANISTAN PAPERS: COSTS AND BENEFITS OF AMERICA'S LONGEST WAR

                              ----------                              


                       TUESDAY, FEBRUARY 11, 2020

                                 U.S. Senate,      
                        Subcommittee on Federal Spending,  
                    Oversight and Emergency Management,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:35 p.m. in 
room 342, Dirksen Senate Office Building, Hon. Rand Paul, 
Chairman of the Subcommittee, presiding.
    Present: Senators Paul, Hawley, Hassan, and Sinema.
    Also present: Senator Lee

              OPENING STATEMENT OF SENATOR PAUL\1\

    Senator Paul. I now call to order this hearing of the 
Senate Homeland Security and Governmental Affairs Subcommittee 
on Federal Spending Oversight and Emergency Management.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Paul appears in the Appendix 
on page 41.
---------------------------------------------------------------------------
    Last night I flew to Dover Air Force Base with the 
President to honor two soldiers who were killed this week in 
Afghanistan, America's longest war. We honor their bravery and 
patriotism. We honor their commitment to their country and to 
their fellow soldiers. But frankly, they deserve better.
    Our soldiers deserve better from their elected officials, 
from us. Congress needs to do its duty and decide whether to 
continue America's longest war. Congress needs to debate what 
the mission in Afghanistan is today. Congress needs to vote on 
whether to continue the war in Afghanistan. One generation 
cannot bind another generation to war, and should not.
    We now have soldiers fighting who were born after the 9/11 
attacks. We need to reexamine what our mission is in 
Afghanistan. Our brave young men and women in uniform deserve 
at least as much.
    On December 9, 2019, the Washington Post published a series 
of investigative reports known collectively as the Afghan 
Papers. The Afghanistan paper series is based, in part, on some 
400 interviews conducted by the Special Investigator General 
for Afghanistan Reconstruction, SIGAR, between 2014 and 2018. 
U.S. Government officials who had been responsible for the 
conduct of the Afghanistan War in some capacity, both military 
and civilian, sat with SIGAR as part of their Lessons Learned 
Program, which is intended to show what has and has not worked 
over the course of the U.S. reconstruction experience.
    I look forward today to speaking with SIGAR's John Sopko to 
discuss the work in greater detail, to clarify SIGAR's mission, 
and to provide some important additional context about 
interviews obtained by the Washington Post.
    As for the substance of the Post's reporting, it is 
extraordinarily troubling. It portrays a U.S. war effort 
severely impaired by mission creep and suffering from a 
complete absence of clear and achievable objectives. Sadly, for 
those of us who have followed Afghanistan closely, these 
reports only serve to confirm our worst suspicions. For years 
it has been my view that the U.S. involvement in Afghanistan 
amounts to a military presence without a mission. We have no 
achievable end state nor have we aligned ends, ways, and means 
to support a non-existent theory of victory.
    I have repeatedly raised these concerns and have repeatedly 
tried to force Congress to confront the Afghanistan issue in a 
meaningful way. In September 2017, I forced a vote on an 
amendment to sunset the 2001 and 2002 Authorizations for the 
Use of Military Force within 6 months. That amendment was 
defeated.
    In this last year, Senator Udall and I introduced the 
Afghan Service Act that would sunset the 2001 authorization 
over a year and require the Department of Defense (DOD) to 
produce a plan to have an orderly withdrawal from Afghanistan 
and also give a $2,500 bonus to our servicemembers who have 
been deployed in the Global War on Terror.
    I have been outspoken about winding the war down. But what 
the Afghan Papers makes crystal clear is that doing nothing is 
no longer an option for any Senator or Member of Congress with 
a conscience. The Costs of War project Brown University 
estimates that since 2001, the U.S. Government has spent just 
under $1 trillion in appropriated taxpayer funds in 
Afghanistan. That's $50 billion a year for almost 20 years.
    The obvious question is, what has that $1 trillion bought 
us? What do we have to show for it? Did $1 trillion make 
Afghanistan more stable? Did $1 trillion make our military more 
capable of deterring peer competitors? Did $1 trillion move us 
one step closer to victory? What legacy costs await us in the 
future?
    But beyond the immense physical costs lie the even more 
difficult questions about our continued presence in 
Afghanistan. The servicemembers who have deployed to fight in 
the war in Afghanistan, many of whom have deployed several 
times, including two of my staff, have paid a tremendous price. 
Some 2,400 have laid down their lives and another 20,000 have 
been wounded, often grievously. How do we honor their 
sacrifices?
    Ambassador Doug Lute will also join us today. Ambassador 
Lute was an advisor to both President Bush and President Obama 
on Afghanistan. In his 2015 SIGAR interview, he says, quote, 
``We were devoid of a fundamental understanding of 
Afghanistan--we didn't know what we were doing.''
    What has changed in Afghanistan since 2015? Anything? Have 
we learned what we are doing yet?
    In 2019, U.S. forces dropped more munitions in Afghanistan 
than it has in any year since 2006, when the Air Force first 
began keeping track. Are we killing the Taliban? Are we trying 
to bomb them into the negotiation table? What is our mission?
    As for the prospect of some sort of negotiated settlement 
with the Taliban, we will also be joined this afternoon by 
Ambassador Richard Boucher. One of the key lessons learned that 
Ambassador Boucher discussed in his interview was that, quote, 
``We have to say good enough is good enough,'' and, quote, ``We 
are trying to achieve the unachievable instead of achieving the 
achievable.''
    What is in the realm of achievable with respect to our 
durable peace in Afghanistan? Is the U.S. military presence 
there helping or hurting the process?
    Finally, we will hear from retired Army Lieutenant Colonel 
Daniel Davis. A combat veteran who was awarded the Bronze Star 
for valor in Afghanistan in 2011, Colonel Davis went public 
with his concerns about the war effort in Afghanistan while 
still on active duty. His testimony will remind us that while 
much of the reporting in the Afghan Papers is new, the 
fundamental problems are not.
    These are the sort of difficult questions that Congress 
needs to begin grappling with, and I am hoping to start that 
discussion today.
    With that I would like to recognize Ranking Member Senator 
Maggie Hassan.

             OPENING STATEMENT OF SENATOR HASSAN\1\

    Senator Hassan. Thank you, Chairman Paul. Thank you for 
holding this hearing. To Mr. Sopko and all of the witnesses 
today, thank you for your testimony, and let me also thank you 
for your extensive service to our country.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Hassan appears in the 
Appendix on page 44.
---------------------------------------------------------------------------
    Sadly, this hearing comes a little more than 2 weeks after 
a deadly plane crash in Afghanistan claimed the lives of two 
airmen, including U.S. Air Force Captain Ryan Phaneuf of 
Hudson, New Hampshire. Just this weekend, two U.S. soldiers 
were killed and six others were wounded in combat operations in 
eastern Afghanistan. These losses serve as painful reminders of 
all the men and women in uniform in harm's way in Afghanistan 
and certainly around the world.
    In October, I traveled to Afghanistan to meet with our 
military and diplomatic leaders, as well as with the leaders of 
Afghanistan. The goal of the trip was to evaluate the situation 
in Afghanistan, to ensure that Afghanistan would never again 
become a safe haven for terrorist groups who threaten our 
country, and to conduct oversight of the longest war in the 
United States history.
    The trip was both inspiring and eye-opening. We saw 
examples of key successes from our nation's campaign in 
Afghanistan. We also saw the effects of the missteps during the 
course of this 
18-year war.
    In the weeks after this trip, the Washington Post published 
a series of articles on confidential transcripts of interviews 
conducted by the Special Inspector General for Afghanistan 
Reconstruction. These papers, known as the Afghanistan Papers, 
helped bring to light several troubling trends.
    Chief among these concerns is the failure of successive 
Administrations to establish a realistic long-term strategy 
that defines our mission in Afghanistan. The oft-repeated 
mantra from Afghanistan veterans and analysts sums this up the 
best: We have not been fighting one 18-year-old war in 
Afghanistan. We've been fighting 18 one-year wars.
    We must learn from these mistakes. We must establish a real 
long-term strategy for Afghanistan that effectively leverages 
our military, diplomatic, and developmental efforts toward a 
goal of ensuring that Afghanistan can stand up its institutions 
to secure itself and combat terrorism.
    We must also not forget that the ungoverned vacuum in 
Afghanistan in the 1990s gave space for Osama bin Laden and al-
Qaeda to build a global terrorist network that killed nearly 
3,000 Americans in the worst attack on U.S. soil since World 
War II. Leaving Afghanistan before their government is capable 
of resisting al-Qaeda, Islamic State of Syria (ISIS), or any 
other terrorist group could prove to be a grave mistake that 
could leave us less safe for years to come.
    Developing a strategy, however, is just the first step. We 
must provide resources to carry out such a strategy, establish 
realistic benchmarks for success, and then Congress must hold 
our government accountable for meeting these goals.
    While the Afghanistan Papers reveal that mistakes were made 
along the way, my trip affirmed that significant progress has 
been made to help keep Americans and Afghans safe, secure, and 
free. We owe a debt of gratitude to the men and women of the 
U.S. Armed Forces, the State Department, and the intelligence 
community (IC) for this progress.
    Our briefings with General Miller, Ambassador Bass, and 
meetings with President Ghani and Chief Executive Abdullah made 
clear that United States and allied efforts have and continue 
to reduce terrorist groups' ability to use the country to 
launch attacks. Groups like al-Qaeda, the Haqqani network, and 
even ISIS' Afghanistan affiliate still threaten the United 
States, but our continued counterterrorism campaign in 
Afghanistan has worked to degrade the capabilities of these 
threats and minimize their ability to launch attacks on U.S. 
soil.
    Aside from our successes fighting terrorism, one of the 
most poignant parts of our trip was hearing about progress 
advancing the rights and freedom of Afghanistan's women. Under 
the Taliban, women were oppressed, subservient, and treated as 
property. Today women in Afghanistan enjoy more freedoms than 
ever before, serve in the Afghan Cabinet, and are building the 
backbone of a more resilient and stable Afghanistan.
    Throughout my trip, including even in neighboring Pakistan 
and in India, women shared with me their fears about what would 
happen if the United States left Afghanistan without a strong 
infrastructure in place to protect these gains. Their message 
was simple: if the United States leaves today then everything 
Afghanistan's women have gained will be lost. I would add that 
some of the women in Pakistan felt that their safety and 
security would be impacted as well.
    We need to establish an achievable strategy for 
Afghanistan. We must define our objectives and goals and 
appropriately resource them, and we must hold the Federal 
Government accountable for its adherence to that strategy. It 
won't be easy, but as my dad, a World War II veteran, used to 
say, we are Americans and we do hard things.
    I hope that this hearing can be a step forward in this 
difficult but critically important work, and thank you again, 
Chairman Paul, for having this hearing.
    Senator Paul. Thank you, Senator Hassan, and I want to be 
clear from the outset. Our goal of this hearing is to find a 
way to move forward. I want to find a way to end the war. It is 
not to cast aspersions on any of those who may have given their 
opinion. That is what we want from people in government who 
gave their opinion. Really, if anyone is at fault here it is 
Congress. It is not the people who might have been telling us 
all along there were problems with the mission or lack of 
mission. It is with us not listening. This is a problem, to let 
a war go on and on and on without Congress ever voting on it.
    Our first panelist today is Mr. John F. Sopko, the Special 
Inspector General for Afghanistan Reconstruction. Mr. Sopko was 
sworn in as Special Investigator in 2002 and brings over 30 
years of oversight and investigations experience to the 
position. Under Mr. Sopko's leadership, SIGAR's work has 
uncovered billions in wasteful spending and mismanagement of 
certain aspects of the reconstruction effort in Afghanistan. 
Mr. Sopko.

 TESTIMONY OF JOHN F. SOPKO,\1\ SPECIAL INSPECTOR GENERAL FOR 
                   AFGHANISTAN RECONSTRUCTION

    Mr. Sopko. Thank you very much, Chairman Paul and Ranking 
Member Hassan, and other Members of the Subcommittee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sopko appears in the Appendix on 
page 46.
---------------------------------------------------------------------------
    Congress created SIGAR in 2008 to combat waste, fraud, and 
abuse in the U.S. reconstruction efforts in Afghanistan. So far 
we have published nearly 600 reports, inspections, and audits, 
and have saved the taxpayer over $3 billion, as well as 
convicting over 130 individuals for misconduct related to 
reconstruction.
    Although this is the 24th time I have presented testimony 
before Congress, today will be the first time I testify before 
the Senate about our Lessons Learned Program and what we have 
learned from it. I would like to pause for a second to second 
what Chairman Paul said. We owe a debt of gratitude to 
Ambassador Lute, Ambassador Boucher, Colonel Davis, and the 
over 400 other individuals who volunteered to provide 
information to our Lessons Learned Program. Without their 
assistance we would not be here today. Without their 
assistance, and admitting sometimes failures that occurred, we 
would not know what lessons we should learn from this 
experience.
    Senator Paul. Let me just interrupt for just one second. 
All of these witnesses did not have to come. They volunteered 
to come today to give us advice.
    Mr. Sopko. That is absolutely correct. They did not have to 
cooperate with us either, but they did, and I think we again 
owe them a debt of gratitude.
    Because of the recent press attention, I am really pleased 
for the opportunity to clear up some misconceptions from the 
Washington Post stories. First of all--and I must repeat this 
because there 
are some people who still think we issued a report in early 
December--SIGAR did not issue a Lessons Learned report. We have 
issued seven of them but we did not issue one in December.
    Rather, the Washington Post stories were, as the Chairman 
noted, based upon raw interview notes that we have provided to 
the Washington Post over the last 2 years pursuant to an 
official legal FOIA. As with everything else produced by SIGAR, 
our Lessons Learned Program's mandate is limited only to 
reconstruction. We don't assess the diplomatic or military 
strategies of the U.S. Likewise, we are not opining on whether 
we should be there or not.
    Rather, we are the only U.S. Government agency that is 
focused on conducting an independent and objective examination 
of our reconstruction efforts, and we are applying strict 
professional standards from the Council of Inspector General. 
Unlike the Washington Post, we have made practical 
recommendations to Congress and the Executive Branch agencies 
for improving operations in Afghanistan.
    Here are six overarching conclusions from our Lessons 
Learned Program that I leave for your consideration.
    The first one is that successful reconstruction is 
incompatible with continuing insecurity. Second, unchecked 
corruption in Afghanistan undermined our strategic goals and 
unfortunately the United States contributed to that corruption. 
Third, after the Taliban's initial defeat, there was no clear 
reconstruction strategy and no single military service, agency, 
or nation in charge of reconstruction.
    Fourth, politically driven timelines have undermined the 
reconstruction effort. Fifth, the constant turnover of 
personnel, or what we euphemistically called ``the annual 
lobotomy,'' has negatively impacted reconstruction and 
continues to this date. Six, to be effective, reconstruction 
efforts have to be based on a strong understanding of the 
historical, social, legal, and political traditions of the host 
nation.
    In light of a request from your staff, we had a couple 
recommendations for you to consider right now. Particularly in 
light of the ongoing peace negotiations, and in order to 
protect the advances we have made over the last 18 years, 
Congress should ensure that the Administration has an action 
plan for what happens the day after peace. Second, to ensure 
that Congress is aware of serious problems in a timely manner, 
it should require agencies to provide regular reports 
disclosing risks to major reconstruction programs as they 
occur.
    Third, in order to protect the U.S. taxpayer, Congress 
should condition future on-budget assistance on rigorous 
assessments of the Afghan ministries and international trust 
funds' internal control. Lastly, oversight is still mission 
critical in Afghanistan. Congress should require the 
Administration to continue adequate oversight and monitoring in 
evaluation capabilities going forward, no matter what the troop 
limit is.
    Our work in Afghanistan may be far from done, Mr. Chairman, 
but for all the lives and treasure the United States and its 
coalition partners have expended, the very least we can do--and 
I am glad you here are starting that process--is to try to 
learn from our successes and failure there. That is SIGAR's 
Lessons Learned Program and that is our attempt to do so.
    I am happy to answer any questions now.
    Senator Paul. Thank you. As you were talking about the 
corruption and then also how we go about reconstruction, I was 
thinking--I think it was in Ambassador Boucher, some of his 
interviews--he was saying, we make the decision when give money 
to foreign countries to make sure it all comes back to us. 
Basically everything has to be built by the United States. 
That's what we do with our weapons, everything, and then we 
sell it as work projects for the United States. But there's not 
as much value added.
    We will let him speak for himself, but I think one of his 
ideas is that we should have funneled some more of the money 
through government entities. Then the question is, if they are 
corrupt, how do we do that?
    What do you think of the idea of more money over time 
having gone through their government and the problem of their 
corruption?
    Mr. Sopko. I agree with the Ambassador that we could have 
spent more money in Afghanistan. We actually had an Afghan 
First policy for a while, to use Afghan corporations or 
companies or individuals for some of the work. We have not done 
an audit on that. I do not know what the percentage breakdown 
is.
    But the concern we have is if you give it directly to the 
Afghans, and there is nothing wrong with that and it actually 
could help the Afghan government develop some capabilities, you 
have to make certain that there are some protections in place, 
some internal controls. In the past, we have not seen that. Our 
job is to caution Congress before you do it, consider the 
outcome if you give the money with no controls.
    Senator Paul. Right. I am not suggesting it is the answer. 
I was just interested in your opinion on it.
    The other remarks that some have made was that there was so 
much of it and there was so much of a flood of it, as a 
percentage of GDP, that it was inevitable it was going to be 
wasted. We broadcast a lot of the things you put out, the $90 
million hotel across from Kabul that was never completed, a 
contractor runs off with the money, a $45 million natural gas 
station, which I am sure nobody is using because no one has a 
car that runs on natural gas, that was supposed to cost half a 
million and it ended up costing $45 million, and these 
examples.
    It is the nature of the game. Government, even in our 
country, is not very efficient either, so I am not so sure we 
have done the best for them. The other question is, maybe we 
cannot actually make reconstruction work and we are not very 
good at nation building. Maybe we should not be in the business 
of that. That is another question that may be broader than your 
mission.
    But what is our military's mission? When I ask soldiers 
they tell me, ``Yes, I thought we were going to go kill the 
enemy and defend our country,'' and they are kind of for that, 
but then they are not so excited about being policemen or 
working on roads, guarding road crews building roads or 
something for the people. I do not know that there are any easy 
answers but I know we cannot keep doing the same thing.
    With regard to corruption, over the timeline, not only your 
timeline and preceding, do you think there is a clear direction 
that is headed toward less corruption, or do you think it is 
still a significant problem? People talk about these warlords 
who are more concerned with their own pockets than they are 
really with general welfare. Better? Worse? What is the 
direction we are heading on corruption?
    Mr. Sopko. Some improvement, not a lot, and I can refer to 
Ambassador Bass in one of his farewell addresses to the Afghan 
government. He basically warned them that if they do not get 
their act together on corruption they are not going to get 
further support. We have been asked--and this is one of the 
areas where I think Congress has been very effective by 
listening to our reports--they have asked us three times to go 
in and do an assessment of the anti-corruption capabilities of 
the Afghan government, and we are in the process of doing the 
third one.
    Our concern is that the Afghan government has been pretty 
good at checking the box, but is there a political will to 
actually bring the big fish, the big corrupt, politically 
important people to task? There is a major problem we have 
identified before, and it continues, but we are going to try to 
do it.
    Some improvement, but I cannot say we are happy, nor is the 
State Department or the Administration happy with their anti-
corruption capabilities.
    Senator Paul. It has been going on so long, and this is not 
the first time we have been in some sort of reconstruction 
effort that you have got to wonder. Everybody has got a new 
idea for how we are going to tweak it, make it better, new 
rules, or the bigger question, whether or not we should be in 
the business of trying to create nations.
    We, or at least I, on my Committee, probably a year or so 
ago, had seen these horrifying reports of Afghan generals 
having underaged male sex slaves. We put an amendment in, in my 
Committee, to say that they would have to certify that this was 
not happening, to each different military command in the Afghan 
army, in order to get U.S. money. My amendment was defeated 
overwhelmingly because they said it would be too hard to do 
that. Is it really? If you cannot have any rules considering 
this horrendous practice, is there any hope, for doing it?
    But to so many up here it is more a concern with shoveling 
the money out, and if the money we gave did not work, we need 
more, I tend to be skeptical of the whole process.
    But I do appreciate your work. I think that it is very 
important that we have inspectors general throughout 
government, but particularly in overseas spending, which is so 
distant from us that it is an ordeal and a hardship just to get 
there to see if it is being spent wisely. We tried to go see 
the gas station and the military command said it was too 
dangerous, that they might risk lives, and we did not really 
want to risk lives. But we should not be building things in 
places where we have to risk lives to even go see it. They are 
not going to see it either, so we have no idea if it is even 
still there. I do not know if your people have been able to go.
    But we do appreciate you trying. I think the lesson from 
the Afghan Papers is really let's bring this to a head, not 
what people have said but what are people saying now and where 
do we go from here.
    With that I would like to recognize Senator Hassan.
    Senator Hassan. Thank you, Senator Paul. Mr. Sopko, I would 
like to start by following up on what you did at the beginning 
of your remarks just now, which is framing the Afghanistan 
Papers in the context of SIGAR's project titled Lessons 
Learned. Can you describe for us what your goals were when 
SIGAR started the Lessons Learned project and how you worked to 
achieve them?
    Mr. Sopko. Our goals actually came about as a result of 
questions I received almost from the beginning of my job back 
in 2013, from Members of Congress such as yourself. We would 
present these reports and show waste, fraud, and abuse, and 
Congressmen and their staff were asking me, Senators were, ``So 
what does it mean, Mr. Sopko? You keep coming in with another 
horror story. What does it mean? What does all of this mean?''
    Actually it was General Allen, who at that time was head of 
our troops in Afghanistan who said that the military will do 
lessons learned, but is the State Department doing a lessons 
learned on this 18 years? Is the U.S. Agency for International 
Development (USAID)? Is anybody going purple? Is anybody 
looking at the whole of government, because this is a whole-of-
government exercise.
    We went to the National Security Council, which was the 
only organization that could have looked at the whole of 
government, and they basically said, ``Go at it. We are not 
doing it, because we are not going to do it again.'' Well, that 
may be true. We know people were planning to do something like 
it in Syria, but it was important we were going to be in 
Afghanistan to try to do that.
    What we tried to do in each of these reports, and my 
colleague over in Iraq, the SIGIR, actually did one massive 
report on lessons learned. What I thought, and my colleague 
suggested, that we break it down into easily--although I would 
not say they were easily, bitable morsels, because they are 
about 150 pages each--but it is particular issues that experts 
told us you had to address.
    The first one was corruption. Then it was about training 
the military. The third one was on economic development. We 
went through a whole series, and as we were doing this, Members 
of Congress and members of the Executive Branch said, ``Well, 
here are some other issues you should look at.''
    Senator Hassan. Right.
    Mr. Sopko. Actually the last one we did, which was on 
reintegration, that was recommended by General Nicholson and by 
Ambassador Bass, because they said, ``This is a topic we are 
going to have to do something about, reintegrating the Taliban, 
and we do not know how to do it, so try to develop that.'' We 
are doing something on elections too, that was recommended by 
both of them.
    That is how the process came about.
    Senator Hassan. OK. It is fair to say that you all feel, it 
is my impression that the production of these Lessons Learned 
reports really factor into the broader mandate of the Office of 
Special Inspector General.
    Mr. Sopko. Oh yes. That is part of our job, is to make 
recommendations on how to improve.
    Senator Hassan. OK. Thanks. As I mentioned, last October I 
led a delegation to Afghanistan and other countries in the 
region, and I met with you as part of my preparations for the 
trip, and I thank you for that meeting, and was impressed to 
see the extensive work your office has done to provide 
accountability for the United States' ongoing engagement in 
Afghanistan.
    Upon visiting I was encouraged to see that the American 
presence in Afghanistan had helped inspire some economic 
growth, had provided invaluable access to resources and 
infrastructure, and certainly, as I mentioned in my opening, 
elevated the status of women and girls.
    Most importantly, the American presence in Afghanistan has 
helped to ensure that Afghanistan does not revert to a safe 
haven for terrorists who may again launch attacks against the 
United States or our allies. Mr. Sopko, while we are rightly 
focused in this hearing, and we should continue this focus, 
too, on what went wrong, I also want to know what went right. 
Are there particular gains that resulted from the United 
States' presence in Afghanistan that stand out to you, and how 
can we encourage the implementation of SIGAR's recommendations 
to continue to find success in Afghanistan?
    Mr. Sopko. I think in certain areas we have seen gains, and 
that is why we do not want to risk them now by moving too 
quickly without thinking about our next step. The gains dealing 
with women and women's issues, I think is one of them. I agree 
with you. I have not met an Afghan woman yet who trusts the 
Taliban, so they are very worried.
    Senator Hassan. Yes.
    Mr. Sopko. Now again, I am basically talking to Afghan 
women in the major cities, and most of the women in Afghanistan 
still live a very dangerous and very precarious existence out 
in the countryside. That is something to remember. The gains we 
have made have been mostly in the cities.
    Senator Hassan. Right.
    Mr. Sopko. We have made some gains in health care, not as 
much as probably a lot of the press releases have said, but we 
have made gains in health care for the Afghan people. We have 
made gains in education for the Afghan people, again, not as 
much as I think some of the press releases have said, but we 
have made some.
    We have also made gains with the Afghan military, 
particularly their special forces, although there is some 
concern that they are being overused. They are being burned up.
    Senator Hassan. Right.
    Mr. Sopko. We have made some gains with the Afghan air 
force. Again, they are being burned up. We are using it up a 
lot for a lot of their work. We have made some gains. I think 
on anti-corruption we have made some gains. Not as much as we 
would like or the U.S. Embassy would like, but we have made 
some gains. So there are areas where we have seen progress.
    Senator Hassan. Let me follow up a little bit. I thank you 
for that answer. As the Lessons Learned project and the 
underlying Afghanistan Papers reveal, the United States lacked 
both a short-term and long-term strategy from the beginning of 
our armed conflict in Afghanistan. After 19 years and nearly $1 
trillion spent, our large-scale combat operations have 
dwindled. Our humanitarian and diplomatic missions have taken 
precedence, including attempts to reconcile with the Taliban.
    However, I worry that without a robust interagency approach 
from the Department of Defense, the State Department, and 
USAID, the United States will continue to spend taxpayer 
dollars without clear goals in mind.
    Has your office been able to determine a defined 
interagency strategy for the United States' continued presence 
in Afghanistan, and what, in your view, and based on the work 
of SIGAR, is the number one thing that we can do to improve the 
U.S. position in Afghanistan?
    Mr. Sopko. There is an overarching strategy that was 
announced by President Trump early, and I think it is about a 
year or two ago. The difficulty we have, and we have been 
asking, is how do our individual programs support that 
strategy?
    Senator Hassan. Right.
    Mr. Sopko. The overarching goal is to have lasting peace, 
to have a peace treaty there which is fair and just to 
everybody. But we have a problem saying the anti-corruption 
strategy, the money we are spending in that area and all of 
that, how it supports it, and that is what we keep asking for 
and we have not really seen that yet.
    Senator Hassan. OK. Thank you. I do have more questions but 
I----
    Senator Paul. We will come back to you and then we will 
finish up.
    One of the things that I was thinking as we went through 
that I think is perplexing to people, is people over here tend 
to see things as sort of black and white, good and bad. The 
Afghan government has done amazing things for women. There is a 
woman ambassador from Afghanistan. It so much different. It is 
night and day. It is hard for us to imagine why communities are 
actually voluntarily choosing the Taliban, and it is hard to 
argue that it does not happen. There are parts of Afghanistan 
that are not being bludgeoned to death. They are voluntarily 
choosing the Taliban over some local warlord.
    I think when we first went in we were trying to defeat the 
people that attacked us. It was war. When you have war you do 
not always wait for Thomas Jefferson to be your ally. You take 
the nearest ally that hates your enemy and you may work with 
them. We worked with a lot of people, but that is the problem 
with staying at war and going into nation-building is we still 
have some of those allies that are tribal fiefdoms involved in 
the drug trade. There were accusations that even the president 
of Afghanistan, for many years, Karzai, that his brothers were 
corrupt, in the drug trade, in the construction trade, and 
different things.
    With these accusations how do we go about it? The thing is 
then, it would be a much more dramatic step. Do we depose the 
local warlord? Do we inflict some form of democracy on these 
people? It is not easy. I do not know if you have a perspective 
from where you sit on why people voluntarily choose the Taliban 
and how we would make it otherwise.
    Mr. Sopko. Mr. Chairman, I think you have hit one of the 
conundrums. It is a wickedly difficult problem. That is why we 
focused first, and I think that is why the generals and 
Ambassadors told us to focus on corruption, because corruption 
is not only a criminal justice issue. It is a security issue.
    What you are seeing is a lot of the Taliban recruits are 
coming from Afghans who are upset about the corruption they see 
in the government, and they are not getting the services. What 
they see is an American contractor or an American contract 
going to some warlord who is stealing their property, abusing 
their women, their wives, or their children, or whatever, and 
they cannot get justice. That is the difficult thing.
    We, in our Lessons Learned report on corruption warned 
about this. I will use an old phrase that I remember my family 
telling me. If you go to sleep with dogs, you will wake up with 
fleas. We should have thought about that when we made some very 
big mistakes about joining with these organizations.
    The answer is to slowly--and we cannot do this overnight--
work with the government of Afghanistan to try to clear out 
some of these problem, corrupt officials. I go back to our 
Lessons Learned reports and what we have learned, and that is 
you cannot ignore corruption until 8 years or 10 years after 
the exercise. Now we are into that problem. How do we dig out 
of it? I think this is where it is going to take time.
    Senator Paul. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman. Mr. Sopko, good to 
see you again. I enjoyed sitting down with you, I guess it was 
a couple of months ago now, and talking about some of your 
reports. I wish it were under better circumstances.
    Let me follow up with you about some of the things that we 
talked about then, because I have to say--as you pointed out to 
me when we met, what has been published in the press about the 
reconstruction efforts in Afghanistan, our strategy in 
Afghanistan, is actually a small fraction of what your office 
has been publishing and trying to draw attention to for years. 
I think the work your office has been doing is very important 
and what you have documented, I think, would be and should be 
startling to the American people. Certainly it is to me.
    Let me ask you this. Do any specific trends lead you to 
believe that the Afghan security forces will one day be able to 
hold off the Taliban and prevent al-Qaeda or ISIS from using 
Afghan territory to stage attacks on the U.S. homeland?
    Mr. Sopko. That is the $64,000 or $64 million question. I 
cannot answer that. I really cannot. We have looked at our 
training of the Afghan military, and as I mentioned to you, 
most of the indicia of measuring success are now classified or 
we do not collect it. I cannot tell you publicly how good of a 
job we are doing on training. So $64 billion has gone for 
training and assisting the Afghan military, and I cannot tell 
you or the American people, and that is in part because we 
allow the Afghan government to classify what I can tell you and 
what I can tell the taxpayers. It is very difficult.
    Senator Hawley. If I could just clarify that point--the 
metrics, how we measure success when it comes to the Afghan 
security forces, like how we measure success with our Afghan 
strategy as a whole, continue to shift, right? We have changed 
those.
    Mr. Sopko. Absolutely.
    Senator Hawley. We and the Pentagon and other 
Administrations have changed those over time. When one metric 
does not appear to show success, then we shift to a different 
metric. When that does not show success then we shift to a 
different metric. Is that fair to say?
    Mr. Sopko. That is absolutely correct. We did that three or 
four times with the metrics on that. Every time we looked at 
it, they changed it.
    Senator Hawley. I have to say that I have posed this 
question to our military leaders and they have given me the 
same answer that you have just given me, which is, they do not 
know.
    Let me ask you this. What specific data points would you 
want to see to be confident that Afghan security forces 
actually have a shot at becoming self-sufficient?
    Mr. Sopko. I would go back to that--again, I am not an 
expert on security. I am just a simple country lawyer. I came 
from the Midwest. I came from Ohio, close to the Kentucky 
border, Mr. Chairman. You would ask a simple question, if you 
were buying a house, show me your progress on it. I think one 
of the progress questions we would ask the Afghans is how many 
people do you control? How many of your citizens are under your 
control, and how much territory? That is now not relevant, 
apparently. It used to be; then it is not.
    I would also come in with the same metrics we would use to 
rate our own soldiers and our own airmen, and see if those are 
being applied. This is not rocket science.
    The other question is, how many Afghan soldiers do we have? 
We are still trying to figure out how many we are paying for. 
How many Afghan police are there really? We do not know.
    This is not rocket science, but apparently it is all 
secret, classified, and I cannot tell you what the results are. 
I would be happy to go into more detail. We have a whole list 
of everything that has been classified, and it keeps growing. 
The latest one was looking at the Afghan special forces, which 
is fantastic. We have put a lot of money in that. But the 
number of independent missions that the Afghan special forces 
are doing has gone down.
    Now I am not a betting person, but I will bet you that next 
quarter that database will be classified, because every time we 
find something that looks like it is going negative, it gets 
classified or it is no longer relevant.
    Senator Hawley. I would like to underscore that point, 
because I think that is really significant. You are saying that 
the metrics that we have used to measure success or progress, 
when it comes to the security forces, when it comes to the 
Afghan government, every time they show negative progress, 
reverse progress, in your observation they either are abandoned 
or they become classified. Is that correct?
    Mr. Sopko. That is correct.
    Senator Hawley. How are we going to measure any progress? 
How is the public or this Congress, which is supposed to be 
performing oversight, how are we going to measure any progress 
if we do not have any access to data or metrics?
    Mr. Sopko. That is the point we have been trying to make 
over the last 5 or 6 years.
    Senator Hawley. Let me ask you a question about the 
economy. Our integrated country strategy for Afghanistan says 
that development of a functioning Afghan state requires a 
growing Afghan economy. Makes sense. But do we have any 
evidence that the licit, the legal Afghan economy is, in fact, 
growing on a consistent and sustainable basis?
    Mr. Sopko. Actually, the evidence is probably going the 
other way. I think one of the ways to look at this is to look 
at the largest export from Afghanistan, and it dwarfs the 
licit, the legal economy, and that is narcotics. Narcotics is 
now anywhere from I think up to $2.1 billion is exported in 
narcotics from Afghanistan. The licit, the legal economy, is 
only $875 million, and one of the few growth areas in the 18 
years we have been there is narcotics.
    Senator Hawley. Let me ask you about the trend lines with 
the Afghan state, broadly. Can you point to any trends that 
cause you to believe that the Afghan government, the State, 
will be able to stand on its own in the near future?
    Mr. Sopko. The trend which is most optimistic is that the 
National Unity Government has recruited a lot of young, brave, 
intelligent recruits to their government. Many of them are 
Western trained. They are eager to do something and try to 
help. That is a positive.
    The negative is that that is going to take time to change, 
to change the way the government is working. The real threat to 
the Afghan government continuing is the fact that over 75 
percent of the Afghan government's budget is paid for by you, 
me, and the other allies. Without that 75 percent, the Afghan 
government and all those brave young Afghans will be out of 
work.
    Senator Hawley. Can I just say, I know my time has expired, 
Mr. Chairman, so I will just say, in conclusion, thank you, Mr. 
Sopko, for your terrific work. Thank you for doing this work.
    I was just in a hearing this morning, the Armed Services 
Committee, on this subject, where we were told again by a panel 
of experts, many of them from the Pentagon, who have done 
tremendous service, by the way, so no personal criticism of 
them. But we were told that we needed to be patient, that we 
just needed more time and more investment, that it was worth 
it. My view is, if we cannot show any progress on any metric--
we have invested $1 trillion, we have lost thousands of lives--
I do not understand. The American people have been hugely 
patient. I do not see what is going on here and I do not think 
anybody really knows what we are doing.
    Thank you, Mr. Chairman.
    Senator Paul. Thanks, Senator Hawley, and Senator Hassan 
has one final question.
    Senator Hassan. A quick question and then we have had a 
vote call and we are going to talk logistics in a minute. But I 
did not want to wrap up this portion of the hearing without 
talking about one of the revelations in the papers about 
taxpayer dollars pocketed by contractors and subcontractors. I 
do not want the American people to think that this is only 
Afghan contractors and subcontractors. There are U.S. 
contractors and subcontractors. As money for development, 
security, goods and services is doled out it makes its way 
through this web of contractors and subcontractors. As a 
result, only a fraction of the total value of the contract 
reaches its intended target, such as helping the Afghan people 
reconstruct their war-torn country.
    For instance, in discussions with Afghan Ambassador Richard 
Boucher, who will be testifying, he said he discovered that 
often only 10 to 20 percent of an expensive development 
contract actually ends up in Afghanistan. Can you discuss this 
phenomenon, and quickly, have there been successful measures 
for capping contractor overhead costs in development and 
security contractors, and what suggestions do you have for us?
    Mr. Sopko. I agree with Ambassador Boucher, and we have 
seen that problem where the main contract just keeps getting 
cut, cut, cut, cut, and then very little is left for the Afghan 
subcontractor. That is one reason why a lot of the buildings 
and roads were not properly made because there was no money to 
do the contract. We have not done an audit on it so I do not 
know significant. This is more anecdotal information.
    The answer is probably to do that type of audit, see how 
bad the problem is, and try to come up with capping amounts. 
But we have not done that. We have not been asked to do that.
    The thing to keep in mind is that we did have an Afghan 
First program at one time to recruit and hire Afghans. I do not 
know how effective that was, and again, we have not been asked 
to audit that.
    Senator Hassan. Thank you very much. Thank you, Mr. Chair.
    Senator Paul. I think we are going to try to go ahead and 
hear from Ambassador Lute and then we may have to do the 
questions afterwards, if he is willing to stay for a little 
bit. We will go vote and come back. But thank you, Mr. Sopko.
    Mr. Sopko. You are welcome.
    Senator Paul. Our second panelist this afternoon is 
Ambassador Douglas Lute. Ambassador Lute's most recent 
government service was as the U.S. Permanent Representative to 
the North Atlantic Treaty Organization from 2013 to 2017. Prior 
to that, Ambassador Lute served on the National Security staff 
in both the Obama and Bush White Houses, where he helped 
coordinate and oversee the war effort in Afghanistan and South 
Asia.
    Ambassador Lute retired from active duty as a Lieutenant 
General in the U.S. Army in 2010, after 35 years of 
distinguished service. Ambassador Lute.

  TESTIMONY OF HON. DOUGLAS E. LUTE,\1\ FORMER UNITED STATES 
PERMANENT REPRESENTATIVE TO NATO AND SENIOR FELLOW, PROJECT ON 
 EUROPE AND THE TRANSATLANTIC RELATIONSHIP, BELFER CENTER FOR 
   SCIENCE AND INTERNATIONAL AFFAIRS, HARVARD KENNEDY SCHOOL

    Mr. Lute. Thank you, Mr. Chairman, Madam Ranking Member. 
Thanks for this opportunity to appear today to discuss the war 
in Afghanistan. In this statement I will briefly outline my 
views on the vital U.S. interests at stake, the current 
situation, and one potential way forward. These are in response 
to the Committee's questions to me.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Lute appears in the Appendix on 
page 69.
---------------------------------------------------------------------------
    In my view, the only vital national interest at stake in 
Afghanistan is to counter terrorist groups that have the 
potential to strike the United States, its citizens, and its 
treaty allies. Indeed, this purpose mirrors the original 
purpose of our intervention just weeks after 9/11, in 2001, and 
it remains the core reason for our effort over the past 18 
years. Of course, we have other less than vital interests in 
Afghanistan as well, and this Committee may wish to discuss 
those. But the essential purpose in Afghanistan remains to 
counter terrorism.
    In my estimation, we have largely already achieved this 
counterterrorism objective. al-Qaeda is much diminished in 
Afghanistan and Pakistan, with most of its senior leaders 
killed, and those who remain, marginalized. The threat from al-
Qaeda and its affiliates is actually greater elsewhere, outside 
of the Afghanistan-Pakistan region, including Yemen, Somalia, 
and in pockets in Syria.
    There is a branch of the so-called Islamic State in 
Afghanistan, but I have seen no evidence that it presents a 
threat to the United States directly, and it is under pressure 
from the Afghans, including, ironically, from the Taliban. This 
potential threat should be monitored, but I do not think it is 
existential today.
    The situation today is a stalemate in at least three 
dimensions. First, the security situation is stalemated with 
neither the Taliban nor the Afghan government, with our 
support, able to significantly change the control of territory 
and population. In rough terms, the government controls the 
major population centers and the Taliban controls much of the 
countryside, especially in the Pashtun, south, and east. There 
is little either side can do to alter this security stalemate.
    Second, Afghan politics are stalemated, with the final 
results of the September 2019 elections still not revealed, and 
the main political factions unwilling to compromise.
    And third, the ongoing talks between the United States and 
the Taliban are not moving forward, largely because the United 
States has insufficient leverage and the Taliban are unwilling 
to make the compromises we are demanding for fear of losing 
cohesion among their ranks. We are stalemated on all three 
fronts.
    Sustaining this stalemate is very expensive. Most 
significant, Afghans are dying and suffering more than at any 
time since 2001, including an increasing number from United 
States and Afghan government operations. The United States 
retains about 13,000 troops in Afghanistan, joined by about 
6,000 from our allies and partners. While our casualties are 
much reduced from the U.S. peak of operations in 2010 and 2011, 
we lost more than 20 soldiers last year, to include some just 
most recently, as mentioned in opening comments. This troop 
presence costs about $50 billion a year a significant 
opportunity cost given the other demands the Pentagon faces.
    Afghanistan also receives one of the largest U.S. economic 
assistance packages. It is among the largest in all of the 
world. Today's stalemate is expensive.
    My main point today is that the U.S. strategy in 
Afghanistan is simply out of alignment. Strategy can be defined 
classically as the alignment, over time, of ends, ways, and 
means. Mr. Chairman, you mentioned this in your opening 
Statement. Ends are our objectives, what we are trying to 
accomplish; ways are the methods, the techniques of achieving 
those objectives; and means are the resources required. When 
these three elements are aligned, in classic terms, a strategy 
is viable.
    My view is that in Afghanistan we have narrow 
counterterrorism objectives that can be achieved by alternate 
methods that do not justify the expensive resources we are 
committing today. Our strategy is out of alignment. U.S. 
objectives have rightly narrowed over time since the peak in 
2010 and 2011, and today these objectives have been 
significantly achieved. But we still persist using largely 
unproductive methods and committing outsized resources, all to 
sustain a manifest stalemate at considerable cost.
    This Committee asked for some thoughts on the way ahead, 
and I will try to be brief as my time expires. I recommend the 
United States prioritize not the military campaign but the 
politics and diplomacy required to move toward compromises that 
end the war in Afghanistan.
    More specifically, a comprehensive political outcome 
requires compromises among the Afghan political elite to reform 
and govern inclusively. It requires compromises in the ongoing 
talks between the Taliban and the United States. It requires 
sustained diplomacy to secure support from Afghanistan's 
neighbors, especially Pakistan and Iran, and others including 
Russia, China, India, and the Gulf States. This is a major 
political diplomatic effort, a campaign that needs to be 
undertaken.
    U.S. economic support to Afghanistan should be conditioned 
on progress by the Afghan government. It is not today 
conditioned. It is unconditional. In the talks with the 
Taliban, the United States should focus narrowly on our 
counterterrorism objective, and ensure verification that any 
deal is implemented as agreed.
    Afghanistan's neighbors must understand that while we have 
narrow interests, their own security interests are at risk 
unless Afghanistan stabilizes.
    Finally, the United States should engage our allies, who 
have supported us now for 18 years in Afghanistan, to support 
this main political diplomatic effort, including by extending 
economic assistance only to an inclusive Afghan government.
    At the same time, to continue to secure our vital 
interests, the United States should develop alternatives to the 
current counterterrorism methods, including enhancing the most 
capable Afghan security forces--Mr. Sopko mentioned the Afghan 
special forces--and intelligence gathering that does not rely 
on a costly U.S. troop presence. There are techniques and 
procedures for intelligence-gathering that do not require 
14,000 U.S. troops on the ground. Offshore basing for U.S. 
forces should be considered, for example, in bases in the 
Persian Gulf, and we can talk about that more if you would 
like.
    What I am describing differs from the current approach that 
aims indefinitely to support unsustainably large Afghan 
security forces and the Afghan government that struggles to be 
inclusive and combat corruption.
    These adjustments, both political and military, can bring 
U.S. strategy into alignment, sustaining our vital national 
interests while dramatically reducing the costs of U.S. troop 
presence. In short, we can do better than sustaining the 
current stalemate.
    A final note of caution. There is the potential outcome to 
this war that is actually worse than the current stalemate. An 
uncoordinated U.S. withdrawal in the absence of the kind of 
political and diplomatic progress I have outlined here will 
likely lead to Afghan civil war.
    The Afghans have seen this before, after the rapid 
withdrawal of the Soviets after 1989. The civil war would 
likely lead to the collapse of the Afghan State and an 
irresistible opening for transnational terrorists to widen 
their reach. These are exactly the conditions that defined 
Afghanistan in the years prior to 9/11.
    Thank you, and I am ready to respond to your questions.
    Senator Paul. We will probably take about a 10-minute break 
to go over and come back but if you have time to stay we would 
love to ask some questions.
    Mr. Lute. Great. I am here.
    [Recess.]
    Senator Paul. All right. We have two votes done and we will 
have to break again in about 30 minutes, but we will see what 
we can do and get through here. I think Senator Hassan is 
coming back and we will see what we get from others coming 
back.
    I appreciated your testimony and I think too often, we 
really do not discuss the exact mission, and you were very 
precise that what you think the mission should be is 
counterterrorism. After 9/11, it was also very precise. It was 
60 words, and the 60 words were basically go after those who 
attacked us or aided and abetted those who attacked us, and the 
Taliban was included in that, and I think that's a reasonable 
interpretation.
    We went on, though, and the media and everybody else dumbs 
this thing down and says ``and associated forces'' and then 
they talk about everybody in Mali being included under 9/11 
proclamation. Well, ``and associated forces'' is not in what we 
voted on, and it became this interpretation. Now we are in 
Mali, Somalia, you name it. We are in 30 or 40 different 
countries because of 9/11. But I like the way you made it very 
specific.
    The other thing that I think we have had as a problem of 
overall discussion of foreign policy is we are, in many ways, 
governed by a platitude, and the platitude is if we do not 
attack them over there they will attack us over here. We have 
to fight them over there or we have to fight them here. I think 
that is simplistic.
    I think it may be sometimes true. I think there was a great 
deal of intelligence that bin Laden had international 
aspirations, dating back to some of the other bombings, and 
there was a discussion in 1998, and that is all sort of 
history. But, there was at least some evidence.
    I think that is why the question, to me, is important. You 
say that al-Qaeda is greatly diminished, and I agree. That is 
what most of the reports tell us, if we are going to be 
objective about it. It is not a big presence. ISIS is really 
not a big presence in Afghanistan either. The question is on 
the Taliban, a big group and it sort of has a name.
    I guess the direct question is do you see them as a threat? 
Are there rumors of them plotting to fly to New York or to fly 
to the United States, or do you see them more as a regional 
player that wants domination of where they live?
    Mr. Lute. It is even more narrow than that, Senator. The 
Taliban are not regional. They are very specifically Afghan. 
They have never threatened or committed an attack outside of 
Afghanistan itself. There is no transnational feature here of 
the Afghan Taliban. They are Afghans. The Afghan Taliban 
leaders are largely outside of Afghanistan because of our 
presence. They are in the tribal areas and in the Pakistani 
city of Quetta. But all they really are fighting for is to 
return to Afghanistan, and be part of the political equation.
    Senator Paul. The question that leads to is, not everything 
is black and white. There are different varieties and factions 
of the Taliban. There are some we think that might be modern 
enough to discuss, some maybe not so much. The question is 
whether the ones we are talking to have operational command of 
the ones we want to stop.
    I am a big fan of Zalmay Khalilzad and I think he could be 
a great person to try to get through this, and he is in the 
process of negotiating. But I even told him that I was 
worried--and I am somebody who wants negotiation, and this 
probably was not enough. He was negotiating when we had a 
cease-fire between us and them. It is better than what we have, 
but, if they are not going to quit killing the Afghan 
government for 120 days or those soldiers, I am not so sure if 
it is enough. That is when things broke down and they ended up 
having another attack that killed some on our side as well as 
the Afghan government. And for goodness sakes. I cannot believe 
it is so hard to even get a 120-day cease-fire from all 
parties, where nobody shoots at anybody for 120 days, which 
makes me pessimistic to it.
    The other complaint I hear from the Afghan government or 
their representatives is they say, ``Well, if you are going to 
negotiate with the Taliban they will never negotiate with us,'' 
and there is some truth to that argument too.
    What are your general thoughts, just sort of about 
negotiating with the Taliban, how it hurts the ability of the--
forcing the Taliban to negotiate with their government, et 
cetera?
    Mr. Lute. A couple of thoughts. First of all, I have a lot 
of confidence in Ambassador Khalilzad. I do not know of another 
American as qualified as he is, both in terms of a deep 
understanding of the region and Afghan politics. He speaks the 
languages. He is an Afghan American, after all. If anybody can 
do this, it is Zalmay Khalilzad. I applaud him for taking this 
on as he has, for really the last 2 years.
    I do believe that the Taliban political committee members 
resident in Doha--so these are Khalilzad's counterparts, his 
negotiating counterparts--are true representatives of the 
Taliban leadership. The most compelling reason is because of 
the recent prominence of Mullah Baradar, who was at one time a 
founding father of the Taliban, very close to Mullah Omar in 
the very early days of the Taliban, who over the last decade or 
so, largely been held in Pakistani custody. He was released by 
the Pakistanis and now leads the Political Commission in Doha.
    Baradar is a credentialing, an authenticating of the 
authority of the Political Commission, Khalilzad's 
counterparts, that I think is very important. I think they are 
connected in a meaningful way to the Afghan Taliban leadership, 
and I think that a deal that they agree to will be adhered to 
by the Taliban.
    The last thought on this point. The Taliban are probably 
the most politically cohesive of all the players in Afghanistan 
today, to include, by the way, the western Coalition, which has 
its political divisions as well. But they are not perfect. They 
also have internal Afghan Taliban political crises themselves.
    The Taliban's number one fear is that some sort of a deal, 
to include potentially a cease-fire, will fracture their 
movement and will cause the hardliners among the Taliban and 
those who are more willing to seek a compromise solution to 
divide. They are very carefully, jealously guarding their 
internal cohesion, and that is one reason they have not agreed 
yet to a cease-fire.
    Senator Paul. Right. But as far as the goal of it, do you 
think the goal is enough just to have a cease-fire with them, 
or, with the problem still being they are still killing the 
Afghan government? Why should it be so hard? To me, a cease-
fire for 120 days seems like that is nothing, and you reassess 
after 120 days and you try to get more agreement.
    Mr. Lute. The problem here rests with this issue of 
internal Taliban cohesion. They are concerned that if they 
agree to a country-wide cease-fire, for something like 120 
days, that their fighters literally will go home and not come 
back. That sounds like good news to us. It is not good news to 
the Afghan Taliban political leadership. That is the problem. 
They see a cease-fire as a potential existential threat to 
their cohesion, so they will not do it.
    My advice, my preference would be to take whatever steps, 
small steps we can take toward our objective and begin this 
process, and see it as a series of stages or steps rather than 
perhaps overreaching and trying to get too much at once.
    Senator Paul. Right. Then I have one more question and we 
will move to Senator Hassan. You conclude by saying an 
uncoordinated U.S. withdrawal in the absence in a kind of 
political and diplomatic progress would likely lead to civil 
war. I like a lot of what you say and then I hear that and it 
worries me a little bit. I know you are sincere in what you 
believe will happen, but to me it is kind of like there kind of 
is a civil war. That is what is going on, and so could it be 
worse? Yes. Could it be better? I don't know. Will the Afghans 
step in and fight more valiantly or more significantly when it 
is them that have to do it, and it is no longer us? And I think 
they are doing more of the fighting now.
    But the question is, when I hear that--and I know you are 
sincere and you would like to make progress--but when I hear it 
then I hear, oh God, we haven't done it in 19 years and how 
many more years is it going to take to get to what you call a 
political and diplomatic process and having it be coordinated 
so it does not go into chaos.
    How do we get there if we have not gotten there in 19 
years? What would it take for you to be happy with it, and then 
does that still mean 5,000 troops, 2,000 troops? Could we get 
down to where we only have enough to protect a base with an 
embassy on it, or something? What do you mean by that?
    Mr. Lute. The answer goes to some of the points I tried to 
highlight. First of all I think we have to prioritize the 
politics and the diplomacy. I do not think we are there yet. 
For the first time over the last couple of years we actually 
have U.S. military leaders admitting that there is no military 
solution to this. That is a sea change from where we were when 
I was in government five-plus years ago.
    That is important, but it is not yet enough. I would ask 
Ambassador Khalilzad, does he have every resource he needs to 
pursue a negotiated settlement? The inspector general mentioned 
that Ambassador John Bass has now left Kabul after 2 years of 
service. He has not been replaced. I do not think there is a 
nominee to replace him. Who is running the embassy in Kabul?
    Is there an interagency process here in Washington? Madam 
Ranking Member, I think you mentioned this notion of who sits 
above this in Washington. Is there a process by which the State 
Department, the Defense Department, the U.S. Agency for 
International Development, take on the lessons that the 
inspector general has highlighted and does something with them? 
I do not know. I am outside the government now, but it is not 
apparent to me that there is such a process.
    There is a lot we could do that would actually empower 
Khalilzad's efforts and bring us closer to a negotiated 
settlement.
    I think, without going on overly long, we also have to be 
very clear with the Afghan government. I do not think we have 
been clear enough that the vital support that we provide, 75 
percent of their Federal budget is provided by us and the other 
international donors, that our support is not going to continue 
unless they make progress on corruption and inclusiveness. 
Frankly, they have not done enough.
    I think there is a lot we can do with the politics of this 
situation, and frankly, I believe we can sustain the 
counterterrorism mission from outside Afghanistan. That is 
contrary to a lot of military advice this Committee would hear, 
but we do it most of the rest of the places around the world. 
We do it in Somalia. We do it across the Sahel. We do it in 
North Africa. We do it in Syria, to some extent. Each of those 
cases is a little different. But when we need to, we have the 
counterterrorism capacity, to get the terrorists we need to 
get. It should not be any different in Afghanistan.
    Senator Paul. Senator Hassan.
    Senator Hassan. Thank you, and we are, I think, facing our 
next vote, so I want to thank you, Mr. Lute, for your 
considerable and expert service and testimony and your 
willingness to be here.
    I am going to boil this down to asking you, I think, what 
is a little bit of a ``please sum up'' question, which is, 
given your experience and perspective here, what should 
Afghanistan look like when the United States eventually 
withdraws our military presence, and with that in mind, what do 
you think it would take for us to get there? You have answered 
some of that, but I just thought I would give it to you that 
way.
    Mr. Lute. The fundamental thing that is missing right now 
is a political agreement between the Afghan political elite in 
Kabul, largely based in Kabul, and the Afghan Taliban, that 
comes to a power-sharing arrangement so that the Afghan Taliban 
are sufficiently satisfied with their war aims, that they are 
willing to come to a power-sharing arrangement.
    What does this mean in practice? It means, that they are 
going to control many of the rural Pashtun areas that they now 
control. The hard reality here is that they have persisted for 
18 years because they have political traction, and they are 
frankly more closely aligned with the political culture in some 
of these rural areas than the Afghan government. They are not 
going away--it is time we recognize that--and they should come 
to a power-sharing arrangement.
    Senator Hassan. I will add, and I would hope with some 
understanding of honoring the rights of women that have made 
some progress over the last 18 years.
    Mr. Lute. That is, I think, where the monitoring 
arrangement would have to come into place.
    Senator Hassan. Yes.
    Mr. Lute. There will have to be some conditions and some 
benchmarks and some verification.
    Senator Hassan. Thank you, and that is all I have.
    Senator Paul. Your opinion that we need to have a political 
agreement--we are pursuing that, the Taliban and mostly us now, 
but Taliban and eventually the Kabul government. Do you think 
this is now the accepted position throughout whatever we would 
call the military establishment? You said the opinion has 
changed now, but do you think that is the accepted opinion?
    Mr. Lute. I do.
    Senator Paul. Thank you very much for not only your long 
career but for giving us advice. We would like to periodically 
talk to you again, both privately and publicly, about this, and 
we appreciate you coming in.
    Mr. Lute. Happy to help in any way. Thank you.
    Senator Paul. Our third panel will feature Ambassador 
Richard Boucher. Ambassador Boucher retired from the State 
Department in 2009, as a career Ambassador, the highest rank 
that can be achieved in the U.S. Foreign Service. Ambassador 
Boucher's State Department career saw him serve as Ambassador 
to Cyprus and as Counsel General in Hong Kong, as well as a 5-
year period as Assistant Secretary of State for Public Affairs. 
From 2006 to 2009, Ambassador Boucher was Assistant Secretary 
of State for South and Central Asia, where he formulated U.S. 
policy in the region, including Afghanistan and Pakistan.
    Thank you, Ambassador Boucher.
    Our fourth and final panelist, who will also be on this 
panel, will be Lieutenant Colonel Daniel Davis. Since retiring 
from the Army in 2015 after 21 years of service, Colonel Davis 
has written extensively on Afghanistan, the Middle East, 
American foreign policy, and grand strategy. Colonel Davis 
gained national notoriety in 2012, when, as an active duty 
soldier, he published a lengthy report detailing the disconnect 
between the U.S. military's lofty rhetoric and the conditions 
he had experienced firsthand on the ground throughout 
Afghanistan. We will start with Ambassador Boucher.

 TESTIMONY OF HON. RICHARD A. BOUCHER,\1\ FORMER UNITED STATES 
 AMBASSADOR TO CYPRUS AND SENIOR FELLOW, THE WATSON INSTITUTE 
     FOR INTERNATIONAL AND PUBLIC AFFAIRS, BROWN UNIVERSITY

    Mr. Boucher. Thank you, Mr. Chairman. Ladies and gentlemen, 
it is a great pleasure to be here to testify today after almost 
19 years. The Subcommittee has determined that we think 
carefully about what lessons we can learn about our involvement 
in Afghanistan but also about the use of military force and how 
to build stability in foreign lands.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Boucher appear in the Appendix on 
page 71.
---------------------------------------------------------------------------
    At the State Department I was involved with Afghan policy 
from 2000 to 2009, whether a spokesman or eventually Assistant 
Secretary. Since then I have to say I have no connection to the 
U.S. Government, no access to any information but what I read 
in the press. But I am glad to see that the Washington Post 
published the Afghanistan Papers series. I do not agree with 
many of their characterizations but it shows that there are a 
lot of people who were deeply involved, who were thinking very 
carefully about what we can learn from the experience.
    The first thing to remember is this was a war of necessity. 
We were attacked for the second time on 9/11 by al-Qaeda. Prior 
to that, we had had diplomatic efforts and sanctions, including 
United Nations (UN) sanctions, to try to dislodge them from 
Afghanistan, but that was not successful, so we had to do 
something about them.
    The second thing was right from the start we knew that our 
exit strategy was to help the Afghans put in place a government 
that could maintain control of their territory, and it could 
prevent groups like al-Qaeda from coming in and re-establishing 
themselves.
    In 2002, we focused on helping the Afghans build a 
government, a government that would balance all the different 
interests there. We knew there were warlords. We knew the 
experience of the 1990s, when everybody was fighting everybody 
else in a horrible civil war, and the goal was to bring people 
together in a democratic structure and create a certain level 
of stability.
    Afghanistan's history tells us that governments worked best 
when there was a loose central government that coordinated a 
lot of regional and ethnic players. Revolts happened when the 
central government tried to impose modernization or impose 
itself from the top. One has to be very careful trying to bring 
change to Afghanistan.
    At first we operated with a balance of power among leaders, 
but progressively we built up more and more of a central 
bureaucracy. Rather than trying to rebuild Afghanistan from the 
bottom up, we tried to do it from the top down, and we sent our 
aide workers, our nongovernmental organizations (NGOs), our 
technical personnel, our advisors, and our accountants, to 
provide a series of programs, a series of ministries, and a 
series of bureaucracies that were much like the one that we 
knew in Washington. People in the provinces and districts saw a 
government in Kabul that was distant, it was ineffective, and 
it was corrupt, and the Taliban stepped into that gap.
    I tell a story about Governor Sherzai in Nangahar in 2006, 
who told me, ``I need five schools, five dams, and five 
roads.'' I said, ``Why?'' He said, ``I need the dams for 
irrigation, I need the roads for the farmers so the farmers can 
get their crops to the market, and I need the schools so the 
kids do not go to Pakistan and get educated in the radical 
madrassas.'' And I said, ``Yeah, but why five?'' He said, ``I 
have this tribe, this tribe, this tribe, this tribe, and I need 
one for everybody else.''
    At the time, I thought that was a terrible idea. It was a 
bad strategy for national development. But thinking back I 
think it was a great strategy for stabilization. He had a 
strategy for stabilization. We tried national development. In 
the end, what we really needed was stabilization.
    We also should remember something that you cited before, 
that the Afghan Finance Minister told me, 80 to 90 percent of 
the money disappears before it gets to Afghanistan. Why is 
that? It is not corruption. Yes, Americans have stolen money 
too. But, we hire a contractor who hires a subcontractor who 
hires a bunch of consultants who hires a bunch of security 
personnel who flies in airplanes, et cetera, et cetera. By the 
time you get somebody on the ground in Afghanistan receiving a 
benefit, it is a very small portion of all those billions and 
billions of dollars that you have allocated for the purpose.
    We focused on big, centralized projects rather than on 
local people who needed roads, dams, and schools. There were 
successes. We talked about some of them--girls in school, 
declining infant mortality, and roads. We built a lot of 
programs and buildings, trained a lot of Afghans, but we did 
not build stability into the system.
    The failure is not just because we focused on central 
rather than local levels. Fundamentally, if the goal is to 
build an Afghan government that can provide security and 
development for its people within its territory, then the 
Afghan government has to deliver the benefits, not some U.S. 
Government employee or some U.S. contractor.
    Over time, we did begin to qualify some ministries and 
Afghan programs like the solidarity program for U.S. funds. We 
spent more money from the Afghan reconstruction trust fund that 
the World Bank administers that tends to put more money into 
local governance. But overall we failed, and still fail, to 
build stability, because we failed to empower the Afghan 
government to deliver the benefits of governments to Afghans at 
the local level.
    Now local level financing means there is going to be 
leakage, corruption. It is a society that is fractured, and 
like many fractured developing societies there is corruption. 
But we need to work out different methods of spending, 
incentives for achieving results, rewards for good governance 
and information, and a tolerance for losses that would allow us 
to work through the government, not around it. We will lose 
some of our money in a system like this, but frankly, I would 
rather see it lost in Afghanistan than spent on high-priced 
foreigners before it even arrives in the country.
    I tried to emphasize local government at the time, but I 
have to say I was caught up by the machine, the triumph of hope 
over experience, and one of my regrets is I did not push harder 
on this when I was in power, or in the halls of power.
    A few words on Pakistan. Pakistan is obviously a key 
player. I do not think any country has lost more men, women, 
and children, suffered more attacks since 9/11 than Pakistan. 
When our goal was to get al-Qaeda, our cooperation was 
excellent. Over time, as we move from a focus on solely al-
Qaeda, to the Taliban, to other groups, our interests and 
Pakistan's interests began to diverge. Rather than acknowledge 
that divergence, acknowledge their interests and negotiate, we 
have tried again and again, without success, to dictate what 
Pakistan must do and should do, and that leads to all the 
resentment on both sides and the accusations of duplicity that 
prevail today.
    A couple of final thoughts. First, we are providing more 
and more of our assistance through Afghan government, although 
as far as I can tell not at the local levels that really touch 
people and promote stability.
    Second, our military presence has been drawn down, but not 
yet to the point where our focus should be solely on the 
remnants of ISIS and al-Qaeda. We should continue to come down 
rapidly. Third, as was mentioned, we need to strongly support 
the negotiations being conducted by Ambassador Khalilzad for a 
stable withdrawal of troops and for negotiations among Afghans, 
so that they can decide the future of their country.
    But fourth, there is a much broader and bigger global 
lesson. America needs to lead with diplomacy. The global effort 
to eliminate the terrorists and all those who harbor them will 
never achieved by military means. They will be achieved by 
capable governments who will provide for their populations. 
That requires more diplomacy, not more interventions. We need 
to lead with diplomacy backed by a military capability, not the 
other way around. And most importantly, we need to fund 
diplomacy so that America can lead.
    We have achieved our initial goal of ridding Afghanistan of 
an al-Qaeda group that attacked us. Now it is focused on 
helping the Afghan government control their territory. In sum, 
in my view, it is time to come home. Thank you.
    Senator Paul. I could not agree more. We are going to take 
a quick break. I have to go over and vote, for about 10 
minutes, and if you both can stay I would love to ask couple of 
questions.
    Mr. Boucher. Absolutely.
    Senator Paul. Thank you.
    [Recess.]
    If nothing else, I am getting my exercise going back and 
forth to the Capitol. Thank you, Ambassador Boucher. Let's go 
to Lieutenant Colonel Dan Davis.

TESTIMONY OF LIEUTENANT COLONEL DANIEL L. DAVIS,\1\ USA, RET., 
      SENIOR FELLOW AND MILITARY EXPERT DEFENSE PRIORITIES

    Lieutenant Colonel Davis. Senator Paul, thank you for 
having me here and giving me the opportunity to share some 
views here. I am very excited to do it, as you alluded to 
earlier. I have been telling anyone who will listen for many 
years now some of these issues here, and I am very grateful 
that you are actually putting this on, in a situation where the 
Senate is actually considering some of these things, and I 
appreciate that.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davis appear in the Appendix on 
page 77.
---------------------------------------------------------------------------
    In the limited time I have, I would like to limit some of 
my talk to things about the tactical level. Some people may 
think that you are talking about strategy and diplomacy and all 
that, and all those things matter, of course, a great deal. But 
if something cannot work at the tactical level, it does not 
matter how brilliant a strategic plan may be, if it cannot work 
on the ground then it cannot work, and it has to be fixed.
    I want to share with you just a couple of examples and then 
an excerpt of a letter I wrote from Afghanistan, which I think 
really illustrates what I have experienced during my time in 
Afghanistan and has direct relevance on what you are talking 
about here today.
    In November 2010, I was deployed to Afghanistan at the 
height of President Obama's famous surge, when more than 
140,000 U.S. and NATO troops were involved in combat 
operations. Prior to my arrival, a number of U.S. generals and 
senior Administration officials had testified before Congress 
that we were winning the war, that we were on the right 
azimuth, and that although the fight was difficult, we would 
prevail.
    My duties in Afghanistan over the 2010-2011 period, with 
the Army's Rapid Equipping Force, took me on operations in 
every significant area of the country where our soldiers were 
engaged and fighting. Over the course of those 12 months, I 
traversed more than 9,000 miles and traveled and patrolled with 
troops in Kandahar, Kunar, Ghazni, Khost, and many other 
provinces.
    What I saw on the ground bore no resemblance to the rosy 
official statements made by so many of those leaders. To the 
contrary, it was obvious, painfully so, that we were not 
winning, that we were not making progress, and that no matter 
how many troops we sent, the war could never be won militarily.
    The 8 years since I made those observations have only 
reinforced that conclusion, and unless we end this war on our 
terms and withdraw our troops, we will continue to pay a high 
price for certain failure.
    As you heard earlier today from John Sopko's exhaustive 
work over the past decade, he has graphically detailed how the 
war has failed, and General Lute just explained the reasons the 
war has lost at the strategic level. I would like to provide 
some context to their excellent testimony and explain why, on 
the ground, the war was always doomed to fail.
    I would like to give you two brief examples of why. In 
January 2011, I made my first trip into the mountains of Kunar 
Province near the Pakistan border to visit the troops of the 
First Squadron 32nd Cavalry. On a patrol into the northernmost 
U.S. positions in eastern Afghanistan, we arrived at an Afghan 
National Police station that had reported being attacked by the 
Taliban about an hour and a half before that.
    Through our interpreter I asked the police captain where 
the attack had originated, and he pointed to the side of a 
nearby mountain. ``What are normal procedures in situations 
like this?'' I asked. ``Do you form up a squad and go after 
them? Do you periodically send out harassing patrols? What do 
you do?'' As the interpreter conveyed my questions, the 
captain's head wheeled around, looking first at the interpreter 
and then looking at me with an incredulous look on his face. 
Then he laughed in my face. ``No, we do not go after them,'' he 
said. ``That would be dangerous.''
    When the enemy knows that the government troops are not 
even going to leave the compounds, then the Taliban know they 
have free run of the countryside and they have no fear of 
government attack. According to the cavalry troopers I spoke 
with, the Afghan policeman rarely left the cover of the 
checkpoint. Though there were over 140,000 U.S. and NATO troops 
in the country, there were vast swaths of the country, even 
then, in which we had not the slightest influence, much less 
control.
    In June of that year, I was in the Zharay District of 
Kandahar Province. While returning to a base from a dismounted 
patrol, as I was about to enter the gate I heard gunshots ring 
out across the meadow as the Taliban attacked a U.S. checkpoint 
about a mile away. As I entered the company's headquarters the 
commander and his staff were watching a live video feed of the 
battle on cameras that were mounted above the camp. Two Afghan 
National Police (ANP) vehicles were blocking the main road 
leading to the site of the attack. The fire was coming from 
behind a haystack.
    As we watched this, two Afghan men emerged from the other 
side of it. They got on a motorcycle and began moving toward 
the Afghan policemen and their vehicles. The U.S. commander 
turned around to his Afghan radio operator and told him to make 
sure that the policeman realized the Taliban were heading their 
way and to be ready to kill or capture them. The radio operator 
shouted into the radio but got no answer.
    On the screen we watched as the two men slowly motored 
right past the ANP vehicles. The policemen neither got out to 
stop the two men nor answered the radio until the motorcycle 
was out of sight. As was all too common in Afghanistan, the 
Afghan troops had made a secret deal with the Taliban to allow 
them safe passage.
    These two anecdotes represent much of what I saw throughout 
my time in Afghanistan. If I had seen mixed results, some good, 
some bad, then there might have been room for cautious 
optimism. But I did not. The stories I heard and the operations 
I observed consistently revealed a war that could not be won, 
an Afghan force that was never up to the task, and an enemy 
that was committed to pay whatever price was necessary to win.
    In closing, I would like to read an excerpt of a letter I 
wrote in the summer of 2011, which epitomizes my entire 
deployment. I wrote this to a friend of mine who I thought 
would understand, a Vietnam veteran. I was explaining how a 
mortar round just that afternoon had exploded near me and 
almost blew my eardrums out. It was also a situation where, 
just days before that, a U.S. helicopter had gone down and 30 
Americans had been killed.
    I wrote to him and I said, ``A common theme among the 
quotes that saw of the family members, when people are talking 
about what happened to those people, they are describing them 
in the media, was that they talked about how they had the 
patriotism and a love of country. It made for a tragic but 
heartwarming story for the readers, but to what end? For what 
purpose? For what greater good did those 30 die?
    ``Even with me just a difference of a few millimeters at 
the launch site of that mortar tube, and I am joining those 30 
in a coffin of my own. While I frankly do not give a crap if I 
go out that way--that is just part of the job, as you know 
yourself--the thought grieves me deeply when I think of how it 
would have affected my family. What would they tell my sons 
their dad had died for? What are any of those who survive told? 
Or even worse, what about those who get arms or legs blown off 
and become a burden on their families?
    ``So what is all this remarkable sacrifice for? Nothing. We 
are here to keep fighting and dying until the clock can run out 
in 2014. That is the part that is so maddening. We are 
conducting for mission's sake. We go on patrol, we do night 
ops, et cetera. We kill a bunch of Taliban. The Taliban kill 
and maim some of us. All this is done to no operational or 
strategic purpose. Good grief. There is not even a tactical 
benefit. Everybody knows we are in the fourth quarter and the 
clock is running out.
    ``This whole thing could have been wrapped up by now. In 
the next few months we could end this war. We do not have to go 
another 2\1/2\ more years of killing and being killed, but we 
will. As I said, this stuff is really starting to get to me.''
    That was written 8 years ago, and everything that has 
happened in those intervening years have just reinforced this 
to include this past weekend where yet two more men, for no 
purpose, have died, and their families are now going to suffer 
egregiously. That needs to end.
    Thank you.
    Senator Paul. Thank you. It gets to the heart of the matter 
and people act as if the Pentagon Papers being released is 
something brand new. We have been talking about the absence of 
mission for a long time, yourself included, and others.
    I read the book, Directorate S, by Steve Coll, and in that 
he quotes from Holbrooke, and Holbrooke apparently does before 
the surge this big, monstrous, hundreds-of-pages report that he 
turns in. Steve Coll lists several of the items. But one of the 
items he lists is that our mission lacked focus then, that it 
was not clear what our mission was. This was before the surge.
    But I guess what perplexed me is the next item, the next 
bullet point from Holbrooke was that he was all for the surge 
and he was all in and we needed to do the surge. How does that 
happen that we were questioning the mission before the surge? I 
guess people say, maybe 10,000 is not doing it, or 20,000, but 
100,000, will work, but then 100,000 sort of works. The Taliban 
leave and then they come back when we started diminishing 
numbers, and it did not work.
    I think we are finally getting the mission of it but has 
taken 18 years. I will ask each of you, and we will start with 
Ambassador Boucher, how does someone like Richard Holbrooke, 
who has all the experience, acknowledge that there is a problem 
with the mission but then advocate for the surge?
    Mr. Boucher. Richard Holbrooke replaced me as Assistant 
Secretary for South and Central Asia, so I am trying to think 
if I ever advocated for a surge. I do not think so.
    But I guess part of it--I made some reference to it. You 
get caught in the machine. You get a direction from the 
President and you are trying to help him do what he wants to 
do, which is get out but get out leaving behind as good of a 
situation as you can. Knowing that he and you are going to face 
a lot of criticism if you leave and there is an attack, or the 
Taliban take another town, or the rights of women are lost in a 
large part of the country.
    It is very difficult. I call it the triumph of hope over 
experience, and we keep doing that. Particularly, if the guys 
in the military tell you, we need a surge. If we only do this 
for 6 months it will be OK, we can do it. But really, we have 
to more and more often say how did that work out last time, and 
what is that going to do this time? I think even by that time 
in Afghanistan there was ample evidence that more fighting was 
not going to get us to where we wanted to go.
    Senator Paul. Lieutenant Colonel Davis?
    Lieutenant Colonel Davis. A lot of people want to say, 
``Well, you do your best,'' and you get a mission, and 
especially if it is somebody in uniform. You can give me a 
crazy mission, something that does not look like it has any 
chance, and I am going to do everything in my power to 
accomplish it. That is one of the good things about the can-do 
spirit.
    But the negative side of that is that when you see, 
graphically, fundamentally, that the objective given to you by 
a member of the government can't be accomplished, then you have 
an obligation to say something. Unfortunately, I think a lot of 
folks just said, ``Well, maybe I can do it. Maybe I can do 
something that other ones can't.''
    But I will say that in 2009, in 2010, both, I wrote an 
article in the Armed Forces Journal, two separate pieces that 
laid out why we should not surge, why we should seek 
alternative endings of the war at that time, before a surge. 
There were many things that could have been done. The Taliban 
had signaled that they were willing to talk back then, and from 
a position of strength we could have had a lot better 
negotiating. But no, people said, ``No, we want to force them 
into a weaker position,'' so they continued to go in and fight.
    But then you have even as late as 2015, you have Anthony 
Cordesman, who has long been talking about, very graphically, 
the reasons why these things cannot work. He talked, in 2015, 
how we did not even have a strategy. He said, literally, you 
are just conducting operations but there is not even a strategy 
that you are seeking to obtain.
    Now then here we are, 5 years after that, and still in the 
same situation. At some point I think that we have to come to 
the point to where we say it would be great if we could do a 
lot of other stuff, I would wish for these outcomes, but 
somewhere reality has to step in and we have to do what can be 
done, especially when you are talking about it costs lives of 
men to keep going.
    Senator Paul. How common was the belief that you were 
having at that time that we lacked mission and focus and 
strategy? Common to many of your other fellow soldiers, or 
uncommon? How common were your opinions?
    Lieutenant Colonel Davis. Senator, I never saw anybody, and 
I am not exaggerating, at the time, on the ground, that 
thought, this has a chance to succeed. Not one person I talked 
to did, and they could all show you on the ground why. Every 
one of them just contented themselves with conducting the 
tactical operations that they were given, because they can 
accomplish any of the tactical missions without question, 
because they are great at that. But they knew that it was not 
going to result in what we wanted it to.
    Senator Paul. Senator Hassan.
    Senator Hassan. Thank you, Mr. Chairman, and again, thank 
you to both of our witnesses, Ambassador Boucher and Lieutenant 
Colonel Davis. Thank you for being here and for your service to 
our country.
    Let me start with a question to you, Mr. Ambassador. Your 
discussions with the special inspector general, as detailed in 
the Afghanistan Papers, demonstrated that the United States 
continuously contracted with individuals in Afghanistan who did 
not share our goals and interests. In some cases, their goals 
were in direct opposition to the interests of the United States 
and its allies.
    Is there a mechanism in place to thoroughly assess the risk 
of contracting with certain Afghans? Who is ultimately 
responsible for deciding whether to contract with these 
individuals?
    Mr. Boucher. I think we are going to have to work with 
people we do not like, and we are going to have to work with 
nasty people. We are going to have to work with warlords. Some 
of these people can be brought into, I should say, an 
acceptable relationship with the government, an acceptable 
management of funds. We can use financial incentives. We can 
use supervision.
    But I think, in the end, the contractual relationships that 
we had were many times sort of driven by what the colonel said, 
is that people making tactical decisions, how do I protect this 
base, how do I make sure that there are no attacks in this 
area, or how do I manage this program, would make 
accommodations with individuals without any further 
requirements.
    There were a whole series of compromises being made every 
day, and having a set of programs that are run on a results-
driven basis, and with certain clear standards, I guess is the 
only way I can think of, at least theoretically, to eliminate 
some of that. But I do not want to claim that we can turn 
Afghans into technocrats. There were Afghan technocrats who 
were very good, but I did not know of any politicians who I 
would trust.
    Senator Hassan. Fair enough. I want to go back again to 
you, Mr. Ambassador, to something I was discussing with Mr. 
Sopko. When the American people see that the United States has 
spent nearly $1 trillion during 19 years of military engagement 
in Afghanistan, they want to know where the money went. 
Certainly some of this money ended up in the pockets of 
Afghanistan's leaders, which subsequently fueled corruption.
    As you noted in one of your interviews, large amounts of 
aid and development dollars ended up in the pockets of American 
contractors in the form of exorbitant overhead costs and 
subcontracting practices.
    Can you explain for us in greater detail how inefficient 
the U.S. side of the contracting process was?
    Mr. Boucher. It depends how much detail.
    Senator Hassan. Well, yes, not too much detail.
    Mr. Boucher. Let's go back to the end of the Cold War. At 
the end of the Cold War, there were people in Congress, 
including Senator Jesse Helms, who said we don't need foreign 
aid anymore. Foreign aid was an anti-Soviet program.
    Senator Hassan. Right.
    Mr. Boucher. We give people money so they don't side with 
the Soviets, and so we don't need foreign aid anymore.
    But the deal that was finally cut with him was if you give 
us the money, and Congress gives us the money, we will spend it 
in the United States on contractors who will then carry out the 
programs. We will cut down the aid bureaucracy. I forget the 
numbers, but aid went from thousands to $1,500 or something 
like that, in terms of their ability to be on the ground to 
deliver assistance in foreign countries.
    A lot of that money that we spend on foreign aid, that we 
spend on development aid for especially a place like 
Afghanistan, the first place it goes is somewhere inside the 
beltway. I tried going through the AID accounts the other day 
to figure out how much actually was contracted in Afghanistan.
    It is not. It is going to big corporations and NGO's within 
the beltway. They take an overhead and they hire their people 
and they hire their consultants and they do their PowerPoint 
charts and presentations and things like that, and then they 
subcontract to somebody that is not a general contractor but 
has expertise and education, or something like that. Then they 
subcontract with somebody who can put people in the field.
    By the time you get money into the field, by the time you 
actually get an expert into the field, much of it has departed, 
and then the expert goes in and, the amount actually given to a 
villager is very small.
    But my biggest problem with the program is not how much 
money it sucks. It is the fact that it is the wrong people 
doing it. You do not build stability in Afghanistan by having 
Americans come in and build a school. You build stability in 
Afghanistan by having the government build a school, the 
government build a dam, the government build a well, the 
government build a program to support women and children's 
health.
    That, again and again, has to be this whole criteria. The 
military was out doing cert programs with their money. The 
majors had a certain amount of money they can spend in a local 
area, and that was great because it kind of calmed things down 
and made them welcome, a little more welcome in the community. 
But it did not build the long-term stability that we want in 
Afghanistan.
    I think you have to think about the purpose of the spending 
much, much differently than we do, and, therefore, you have to 
spend it much, much differently.
    Senator Hassan. I appreciate that. I am going to follow up 
with you, Lieutenant Colonel, maybe on the record, because I 
want to be respectful of the time for the fifth vote, and 
Senator Lee is here. I appreciate very much your service and 
your willingness to participate in this process, and would look 
forward to more discussions about how we can provide 
appropriate oversight. Thank you.
    Lieutenant Colonel Davis. Thank you.
    Senator Paul. Thank you, and I would ask unanimous consent 
that Senator Lee be allowed to be part of our Subcommittee for 
the day, and thank you for joining us. With that I will turn to 
Senator Lee.

                OPENING STATEMENT OF SENATOR LEE

    Senator Lee. Thank you, Mr. Chairman. Thanks to both of you 
for your indulgence in letting me come and participate today. 
Thanks to both of you for coming to talk to us about this 
important issue.
    Army Colonel Bob Crowley served as Senior Counterinsurgency 
Advisor to U.S. military commanders in 2013 and 2014. He 
stated, ``Every data point was altered to present the best 
picture possible. Surveys, for instance, were totally 
unreliable, but reinforced that everything we were doing was 
right, and we became a self-licking ice cream cone.''
    I quote that partly because I really like the expression, 
``self-licking ice cream cone.'' But in all seriousness, it 
reflects something that is very disturbing. This goes beyond 
the run of the mill type of waste, fraud, and abuse situation 
that we see. The stakes are higher nowhere than when we put 
American blood and American treasure, to a very substantial 
degree, on the line.
    What this reflects is a prolonged pattern, key points 
during this nearly two-decade-long war effort, during which the 
American people were actively, knowingly, willfully deceived. 
They were lied to. This is clearly unacceptable, and, in fact, 
describing it as such almost does not do justice to the concept 
of unacceptability.
    As a republic, it is wrong for us to have a government that 
provides deliberately false information to the people and to 
hide the truth from Congress, from the people's elected 
lawmakers, whose job it is to make sure that we set the right 
policy, and that any wars that we are fighting are morally, 
legally, and constitutionally justified and are bringing the 
benefits to public safety, that a war really need to be able to 
command in order to justify its existence.
    Colonel Davis, I will start with you. How can the Pentagon 
rebuild and reestablish trust, the kind of trust of the 
American people that it needs to have?
    Lieutenant Colonel Davis. First of all, Senator, there has 
to be a decision at the very top that dishonesty is not going 
to be tolerated. Unfortunately, I almost chuckled, perversely 
so, I suppose, when you were talking, because to us on the 
ground, that was like common knowledge. Everyone knows that.
    Especially any time a codel comes over, they are shown what 
they are supposed to see. They come in there and the intent was 
that we are going to show you everything to reinforce your 
belief that this is going in the right direction, and all the 
things that we told you when we were sitting in these halls 
here to talk about, and telling you how good things were going, 
we are on the right azimuth, et cetera. You would only be shown 
briefings and data points and everything that just seem to just 
absolutely make it look like that is great.
    The people underneath it who were putting this stuff 
together, of course, we know. We know what is not being shown. 
We know the things that you are not seeing, the places you are 
not being taken to, and we knew that if you were, of course it 
would be a dramatic, if not radically different outcome.
    But the honest truth is, and I have just got to be frank 
with you, sir, a lot of the people over there in the military 
think that you guys are not smart enough to be able to make 
those determinations. We do not want to show you a 
comprehensive viewpoint. We just want to show you what you need 
to see so that you can go back and do the right thing. I am 
just being blunt about it. That happens routinely.
    That was one of the big drivers that led me, in 2012, to 
come out and say, this is not right. You are being lied to. It 
was the fact that Congress was being told the wrong thing. 
Because even in the things that came out at the time, I was not 
taking a position on what we should do but on whatever Congress 
is being told, it has to be the truth because you made the 
decisions. The civilian control of the government decides 
whether we go to war, whether we do not go to war, or whether 
we stay at war. Because you are the ones that we vote in to 
make that determination for the people.
    My observation was that we, as military, were not doing 
that. We were keeping the truth from you. Now you think you are 
being told the truth and in good conscience you will go out and 
continue something because it seems to make sense.
    To turn that around, it is going to take somebody at the 
top to say, look, whether you think that Congress is smart 
enough to figure this out or not does not make any difference. 
You are going to tell just the truth, and we are going to leave 
it up to our elected representatives to make the determination.
    Senator Lee. What you are describing, in effect, is a 
significant disconnect between what was happening on the ground 
and what officials within the Pentagon were telling SIGAR, on 
the one hand, and what they were telling Congress on the other. 
Is that right?
    Lieutenant Colonel Davis. Not necessarily SIGAR 
specifically, because he actually got a lot of accurate 
information. But definitely what was being told in hearings.
    Senator Lee. OK. What are some of the barriers? What are 
the obstacles that were in the way of them telling the truth to 
Congress? Was it just an assessment--you described something a 
minute ago that perhaps some of the people on the ground were 
thinking Members of Congress are not smart enough to handle it, 
although we are certainly not going to be smart enough to 
handle it if we are not given the accurate information. It is 
not as if we have the ability to go to a different tour guide. 
It is not as if we have the ability to tour some of the 
countryside on our own without them deciding where we can go, 
because they are always going to be in the driver's seat there.
    Lieutenant Colonel Davis. I can give you a perfect example 
of that works. It is institutionalized. When I came out in 
February of 2012, with my article, and it hit the New York 
Times, and it blasted all over the place, there just happened 
to be a scheduled Pentagon briefing the next day with the 
three-star ground commander for U.S. forces, General 
Scaparrotti at the time. They asked him about this. They said, 
``Hey, did you see this report that just came out? What do you 
think about it?''
    He says, ``Well, I saw it, but that is one person's 
viewpoint. If you just look at one point you could come up with 
the wrong information or the wrong idea. But I see all of these 
things, that are balanced, and in my view, we are right on 
track and our assessments are actually right.''
    The idea is I cannot tell Members of Congress the good side 
and the bad side, because then you might accidentally, 
incorrectly think, ``Well then we should shut the war down.'' 
So you are only going to be shown what is the right thing to 
do, and that is to continue the war.
    Senator Lee. Nothing to see it here.
    Lieutenant Colonel Davis. Yes, sir.
    Senator Lee. I remember September 11th as if it were 
yesterday. My daughter, Eliza, was a baby at the time. Shortly 
thereafter, as you recall, we undertook the war effort in 
Afghanistan. At the time that occurred I remember being 
concerned. I did not hold public office. I did not work in 
government, just as a private citizen. But what we were told 
was there was a clear objective. The clear objective was to 
retaliate against al-Qaeda for the September 11th attacks and 
to make sure that Afghanistan did not serve as a stronghold 
where the Taliban could gain momentum and establish a 
sufficiently strong foothold so as to launch other attacks on 
the United States.
    Since then 19 years have elapsed. My baby daughter, Eliza, 
is now in college. We are still there. That war is still going 
on. Taliban is still a thing. Yet I am not sure exactly what we 
have to show for it.
    In the meantime, I am in my 10th year in the U.S. Senate 
now. I have had a lot of questions about this war, and I have 
asked a lot of questions that have not brought about 
satisfactory answers, from people at the Pentagon. 
Notwithstanding my persistence in asking or my attempt to be 
thorough in the manner in which I answered questions. I sensed 
a lot of the times that something was terribly wrong because 
some of the answers did not seem to make much sense.
    But I guess what I am getting to is I would like to know 
from you what is the objective in Afghanistan. I am not sure I 
know anymore.
    Lieutenant Colonel Davis. Yes, sir. In the initial you were 
dead right. President Bush gave an absolutely militarily 
attainable mission in October 2001. It was absolutely correct. 
It was something we could do. We had the military capability to 
do it, which was to defeat the Taliban and to degrade al-
Qaeda's ability to conduct operations against the United 
States. Those were absolutely accomplished, 100 percent, by 
about maybe as late as the next summer, so by 2002. Then we 
should have returned because there was no military mission left 
to accomplish. We absolutely annihilated the Taliban. We did 
not just defeat them.
    At that time there was no military foe left to keep our 
troops there for. Many people often claimed that, with Bush 
with Iraq, he took his eye off the ball and that is what caused 
a problem. No. There was no ball to keep your eye on for a 
number of years after that. We should have retired. But 
President Bush then, and President Obama later on, changed the 
mission to nation-building, which cannot be accomplished with 
military forces.
    Senator Lee. Hence the self-licking ice cream cone 
metaphor.
    Lieutenant Colonel Davis. Yes, sir. To answer the next part 
of your question, there is no strategy right now. None. There 
is no strategy that, OK, if you accomplish A, B, and C, the war 
will be over. Nothing like that exists. We are merely 
conducting operations with no objective.
    Senator Lee. If that is the case, Colonel, at what point do 
we say, ``OK. That is it. This war is over. It is time to go 
home.'' Or is this indeed an indefinite conflict, a war in 
perpetuity?
    Lieutenant Colonel Davis. 2012, we should have done it. We 
should absolutely do it right now. Because every day that goes 
forward, you are going to have more men like those two who were 
murdered over the weekend for no good. Everybody says they are 
heroes and all this stuff, but, sir, we have to be honest and 
say they lost their lives for nothing. They did not defend 
American democracy. They did not secure our safety. They were 
just killed because we will not shut the war down, and we just 
keep going. That just grieves me more than I can even explain 
to you, sir.
    Senator Lee. It seems to me that when something has taken 
place, and, Mr. Chairman, I appreciate your indulgence. I 
realize I am dangerously over time now. When the United States 
has been involved in a conflict for this long, that has cost us 
as many lives as it has, that has produced literally tens of 
thousands of American casualties and thousands of deaths on top 
of those, on which we have spent trillions of dollars, and we 
have been lied to over and over again about what its purpose is 
and about what steps we are making toward a purpose, that we 
are later told is an illusory one. If we were in a law school 
setting I would describe this declaration of war as void under 
the rule against perpetuities.
    The problem here is that we have no objective and no real 
end in sight. There are those who, in that circumstance, say, 
yes, but you cannot just pull out now, because if we were to 
pull out now it would leave a void, and that void would cause 
other problems and then we would be looking at another 9/11. We 
have to pull out, if at all, very gradually, so as not to 
create that void, so as not to make the United States more 
vulnerable.
    What do you say to that?
    Lieutenant Colonel Davis. Oh, that is one of the most 
pernicious myths that there is out there. As General Lute 
talked earlier, and really laid it out in one of the best ways 
I have seen recently, we do not need troops on the ground to 
keep us safe here, to keep another 9/11 from happening. As we 
have seen graphically depicted with the taking out of Osama bin 
Laden in Pakistan--we did not have troops there--with al-
Baghdadi, with Soleimani the other day, with the guy from AQAP 
in Yemen, ever after that, we can take out any direct threat to 
the United States anywhere in the world that they come to, 
because of our extraordinary power to project power and our 
intelligence surveillance and reconnaissance.
    That is taking place everywhere, regardless of where the 
threat may arise from. But the fear that if we leave we are 
going to cause a void or that there is going to be a civil war 
belies the fact that there is a war going on right now. The 
casualties are higher this year than they have ever been since 
2001. There is nothing to create more.
    Now that is not say that our departure would not cause some 
real problems, but if we do this in a professional, sequenced 
way, in a short period of time, maybe 12 months, then we can 
say it is going to be on you. I do differ from a lot of people 
here, where I will say I think it is OK to put difficulty on 
the shoulder of the Afghans, and I think that they will respond 
very well.
    I have some good friends who are still in Afghanistan, and 
I want to see them be safe. But I think if you put 
responsibility on their shoulder, and they know their life is 
on the line if they do not make whatever deal is necessary with 
the Taliban or with these other warlords they are historically 
used to doing that. They will do it. But as long as we keep 
this thing going on, into perpetuity, with no end, they have no 
motivation to make the hard choices.
    Senator Lee. Thank you, sir. Thank you for your frankness 
and for informing of what you see are great problems. I want to 
thank President Trump for his willingness to ask difficult 
questions about this war, about other wars, and I want to 
encourage President Trump to follow his instincts.
    Lieutenant Colonel Davis. Sir, I think President Trump 
might be the only one that could make that hard choice, because 
there would be a firestorm of anyone who talks about actually 
ending this. But if anybody can do it I think it might be him.
    Senator Lee. I agree completely, and I encourage him to do 
so. Let's get out.
    Lieutenant Colonel Davis. Amen.
    Senator Lee. Nineteen years is too long. Let's end it. 
Thank you.
    Senator Paul. I am going to follow up on that and give 
Ambassador Boucher a chance on that, because this is sort of 
the argument. Even people who sincerely want to get out or want 
to figure out a way to end America's longest war, they feel 
well gosh, if there is an attack I will be blamed for it. So 
politicians, they worry. They worry about taking blame. Bad 
economy, good economy, another war or 9/11. Nobody wants the 
responsibility.
    I think there always is that danger, whether we are in 
Afghanistan or not. I think there is that danger. I guess the 
way I look at it is I think it is sort of like a 20th century 
idea or a ``hey boomer'' kind of idea, that you have to occupy 
the acreage to stop terrorism, and this isn't so. There is a 
lot of acreage.
    It seems like everywhere you look there is a good place to 
be a terrorist. Libya is a great place these days. Somalia is 
still not that bad. Yemen is a decent place. Mali. There are so 
many places that is Afghanistan unique? If we are going to take 
that strategy in Afghanistan then we really have to take it in 
the entire world. Are there enough troops and resources to do 
that? We have to figure out a better way.
    But what do you say to the argument from people who say, 
``Well, if we leave there will be another 9/11''?
    Mr. Boucher. I think you are right. I think we have, in 
fact, taken it all over the world, and we have, in fact, said 
that, there are terrorists here, you know. We define terrorism 
as people who set off bombs and kill civilians, particularly in 
opposition to governments that we see as legitimate. You start 
doing that and you end up everywhere.
    The one thing I will say, for those who ask what have we 
done in Afghanistan, we have prevented another attack on the 
homeland from the territory of Afghanistan. Now, we could have 
done that more quickly with much less loss of life, American 
and Afghan lives, and money. But if the goal is to prevent an 
attack on the homeland, then we should be able to do that with 
intelligence, with the assets we have, with the diplomacy that 
we need to deploy, with the efforts that we can use to help 
governments establish themselves in these ungoverned spaces, 
and with a lot of vigilance.
    But, my contention is we need to lead with our diplomacy. 
The fact that, yes, the Taliban is probably going to take some 
territory as we withdraw, is that going to threaten the United 
States of America? I do not think so, particularly if we can 
negotiate a solution that has certain guarantees and certain 
capabilities in it, and we can use financial incentives, for 
them and for the government, to maintain a peaceful situation.
    Senator Paul. I think you are right. In the early stages 
the argument that may have prevented another attack by 
disrupting those who sort of plotted, organized, and financed 
the attack is real, but it very quickly became something else.
    See, this question is still an important question, though, 
because when I asked Ambassador Lute this, and I will let both 
of you answer this question, we still have a lot of people who 
very glibly say, ``Oh my goodness, ISIS is over in 
Afghanistan.'' And maybe. There are radical Islamists or 
Jihadists, I am sure, in Afghanistan. The Taliban are radical. 
But the idea that there is a cell of ISIS that is going to take 
over Afghanistan or take over the world or come to New York 
City is just one that is a bogeyman that is put up there to 
keep us there.
    Ambassador Lute said he thinks al-Qaeda is gone, and most 
honest appraisers of Afghanistan say there is not a lot of al-
Qaeda left in Afghanistan. There are a lot of Taliban. We all 
admit there are a lot of Taliban. But when I ask are they 
organizing to come see us, in a violent way, in a big terrorist 
attack, it really is not their history. Their means do not seem 
to be consistent with that. He also argued that we should 
continue to monitor them, and are there ways of monitoring them 
without going village to village in Kandahar? So I guess that 
is sort of the question.
    The specific question is do you see Taliban as an 
international threat, and is that a sufficient argument for 
maintaining large forces in Afghanistan?
    Mr. Boucher. The simple answer is no and no. Somewhere I 
saw a number, and I was not able to find it in the last week, 
but most of the Taliban are fighting within 20 or 30 miles of 
their villages. They are local people. They are representatives 
of Pashtuns. They are fighting to protect their villages. They 
are fighting to impose their idea of safety and security and 
justice and livelihoods. But they are not fighting so that they 
can plan another attack against the United States.
    We need to think about that and say they are an enemy when 
they shoot at us, and we are going to shoot back, and we are 
going to try to stop them from shooting at us. But in the end 
they are not a threat to the homeland.
    Senator Paul. Lieutenant Colonel Davis.
    Lieutenant Colonel Davis. Yes. If we are worried about the 
presence of someone called ISIS somewhere in the mountains of 
Afghanistan, then we have to be worried about the people who 
call themselves ISIS in Libya, in all different parts of 
Africa, in this part of Southeast Asia. They are all over the 
place.
    As you absolutely hit the nail on the head a second ago, 
you cannot put troops everywhere. It is impossible. As I said 
in my testimony earlier, when we had 140,000 NATO and about 
300,000 Afghan troops at the time, there were still vast tracts 
of the country that were not governed at all. The idea that we 
were keeping ourselves safe, preventing that then is really not 
true, because they could have done that had they wanted to.
    But they could not do it then and they still cannot do it 
now, because we have a really good global counterterrorist 
strategy that uses our ability to project power, our ability to 
coordinate with friendly intelligence services, and really good 
cooperation between our Federal, State, and local law 
enforcement. That is what keeps you safe everywhere.
    But the fact that you only have a couple of dots of troops 
in Afghanistan right now means that most of the country is not 
even influenced by us, and then, of course, there is all the 
stuff in Pakistan and the other 'stans that are in the region 
there, and then all the parts in Africa and elsewhere that we 
have been talking about here.
    We have to keep ourselves safe from all of those, every 
single hour of every single day, and we do a tremendous job. My 
hat is off to all the people who do that stuff on a daily 
basis. Because they are so successful, it gets to the point, 
sir, to where I believe it is actually counterproductive to 
keep troops in Afghanistan, in Syria, in Iraq especially, 
because all we do is act as magnets for bad guys to come and 
kill us. Because they cannot attack us here but they can move 
to certain places and fire rockets, Katyusha rockets, as we 
have seen in both Iraq and Syria here in recent days. Our 
troops in Syria have come face to face with potential Russian 
troops, and that has a big threat there.
    Every time we spend all this money and all this diversion 
of our focus on something that is not even necessary, we are 
taking risks that we do not need to take and we are not focused 
on the potential existential fights that we may need to fight 
one day.
    Senator Paul. We are going to finish up here very quickly 
and I am going to end with one thing that I will let you each 
respond to. Probably the deadliest platitude on the planet that 
has killed more of our soldiers is that we have to fight them 
over there or we will have to fight them over here. There might 
be an occasion that is that true, but it does not apply to 
everyone in the world, and we have applied to everywhere in the 
world, that we have to fight them over there. I think maybe the 
opposite platitude might be true. They fight us over there 
because we are over there.
    Platitudes probably are not the best way to go into foreign 
policy, but you hear the argument all the time, Ambassador 
Boucher, that we have to fight them over there or they are 
going to come over here. How would you respond?
    Mr. Boucher. I guess I would say lets look at where the 
attacks are, what happened, what kills Americans, who kills 
Americans, but also who has killed Brits, who has killed 
Europeans. To a very great extent, those are not terrorists 
that fly in from Afghanistan, the Gulf, or the Horn of Africa. 
Those are people that were raised in those societies and ended 
up lost, dissatisfied, or angry for some reason. The problem of 
angry young men is not angry young men getting on airplanes. 
They are angry young men that live with us, and that requires a 
more domestic focus.
    Senator Paul. Lieutenant Colonel Davis?.
    Lieutenant Colonel Davis. The statement, when people say 
that, there is an assumption that they make subconsciously, 
whether they are aware of it or not, and that is that those 
troops do keep us safe here. I would say, do about 5 minutes of 
a thought process and an analysis. Are we saying that in this 
entire country of Syria, because we have a handful of troops 
and just a couple of dots, most of which are there to do self-
protection, because they are out in the middle of nowhere. They 
are little islands. There is hardly any influence beyond where 
they physically are sitting on the ground. What about the 
entire vast expanse of that country, or in Iraq where they are 
right now? We maybe going on some patrols here where some 
people were hit recently, and some other things in Afghanistan. 
These Key Leader Engagements (KLEs), which is where those men 
were killed a couple of days ago. When they are not on those, 
then the entire countries, every one of them, are completely 
open, as though we were not there. On a strategic level is it 
as though we are not there.
    The idea that we are protecting ourselves there, and the 
fear that if we remove them it will cause a new risk, 
underscores the fact that actually they are not helping. They 
are experiencing risk now, and it would reduce the risk to come 
out. The result is actually perversely the opposite.
    Senator Paul. Thank you both for your testimony. Thank you 
for volunteering to come in. Thank you for trying to give 
advice to our country, and I hope you both will continue.
    This concludes our Subcommittee hearing. We are adjourned.
    Mr. Boucher. Thank you very much.
    [Whereupon, at 4:13 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ---------- 
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              
                              


                                 <all>
</pre></body></html>
